<html>
<title> - EXAMINING ACCESS AND SUPPORTS FOR SERVICE MEMBERS AND VETERANS IN HIGHER EDUCATION</title>
<body><pre>[Senate Hearing 113-838]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 113-838

   EXAMINING ACCESS AND SUPPORTS FOR SERVICE MEMBERS AND VETERANS IN 
                            HIGHER EDUCATION

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

   EXAMINING ACCESS AND SUPPORTS FOR SERVICE MEMBERS AND VETERANS IN 
                            HIGHER EDUCATION

                               __________

                              MAY 22, 2014

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-616 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland         LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington              MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont          RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania    JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina          RAND PAUL, Kentucky
AL FRANKEN, Minnesota                 ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado           PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island      LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin              MARK KIRK, Illinois
CHRISTOPHER S. MURPHY, Connecticut    TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts

                      Derek Miller, Staff Director
        Lauren McFerran, Deputy Staff Director and Chief Counsel
               David P. Cleary, Republican Staff Director

                                  (ii)

  

























                            C O N T E N T S

                               __________

                               STATEMENTS

                         THURSDAY, MAY 22, 2014

                                                                   Page

                           Committee Members

Sanders, Hon. Bernard, a U.S. Senator from the State of Vermont..     1
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................     3
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..     4
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....     4
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    28
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    31
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    34

                               Witnesses

Starks, Lauren Thompson, Senior Policy Advisor, Office of the 
  Under Secretary, Department of Education, Washington, DC.......     5
    Prepared statement...........................................     6
Langdon, Thomas L., Director, State Liaison and Educational 
  Opportunity, Under Secretary of Defense, Personnel and 
  Readiness, Office of the Deputy Under Secretary of Defense for 
  Military, Community, and Family Policy, Alexandria, VA.........     8
    Prepared statement...........................................     9
Hubbard, William, Vice President of External Affairs, Student 
  Veterans of America, Washington, DC............................    12
    Prepared statement...........................................    13
Carlson, David, Coordinator of Student Veteran Services, 
  University of Vermont, Burlington, VT..........................    16
    Prepared statement...........................................    17
Rhinehardt, Kimrey, Vice President of Federal Relations, 
  University of North Carolina, Chapel Hill, NC..................    19
    Prepared statement...........................................    20

                                 (iii)

  

 
   EXAMINING ACCESS AND SUPPORTS FOR SERVICE MEMBERS AND VETERANS IN 
                            HIGHER EDUCATION

                              ----------                              


                         THURSDAY, MAY 22, 2014

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Bernie 
Sanders, presiding.
    Present: Senators Sanders, Harkin, Casey, Franken, Baldwin, 
Murphy, Warren, and Burr.

                  Opening Statement of Senator Sanders

    Senator Sanders. Good morning.
    Thank you all for coming, and I want to extend a special 
thanks to our panelists who have a whole lot to say on a very 
important issue.
    I want to thank, for a moment, Chairman Harkin, for 
inviting me to chair this Health, Education, Labor, and 
Pensions committee roundtable today, and I am pleased to be 
joined by Senator Burr, Senator Baldwin, and others, I suspect 
will be coming.
    The Department of Defense estimates that approximately 
250,000 to 300,000 service members will separate annually over 
the next 4 years. That is more than 1 million brave men and 
women transitioning back to civilian life.
    As Chairman of the Senate Veterans' Affairs committee, and 
Senator Burr is the ranking member of that committee, I think 
we can tell you how important it is that these service members 
get the tools they need for successful transition. I think we 
can all agree that for many service members, getting an 
education is a critical component of that transition.
    Today's discussion will help us determine ways that the 
Higher Education Act is helping us achieve those goals, and 
find areas where there are problems, and where we can make 
improvements.
    Today, the unemployment rate for veterans who served after 
9/11 is higher than the unemployment rate for nonveterans. The 
Bureau of Labor Statistics reports that as of April 2014, the 
unemployment rate for post-9/11 veterans was 6.8 percent. In 
reality, if you factor in people who are working part-time when 
they want to work full-time, that number is probably higher.
    We are making progress in lowering those numbers and a 
major contributing factor has been the post-9/11 G.I. bill, 
which has gone further to support student veterans than any of 
its predecessors. And I consider it to be a landmark piece of 
legislation in helping something like 1 million veterans and 
their families.
    Since 2009, the V.A. has paid more than 1 million post-9/11 
beneficiaries more than $40 billion. This is a significant 
piece of legislation. In 2013, it was one of the largest of the 
Federal Government's education programs. The V.A. estimates the 
number of beneficiaries will continue to grow.
    To support those veterans using this benefit, and to ensure 
that they get the most out of it, V.A. has expanded its 
VetSuccess On Campus programs to 94 locations around the 
country. VetSuccess counselors are V.A. employees who work on 
college campuses and provide a range of services that 
holistically address the needs of student veterans as they 
integrate into college life from adjustment counseling, to 
vocational testing, to career counseling. These counselors also 
assist veterans with disability accommodations and provide 
referrals for health services through V.A. medical centers, 
community-based outpatient clinics or vet centers.
    Despite its success, there are still aspects of the post-9/
11 G.I. bill that can be improved. In fact, to help keep costs 
manageable for student veterans, I introduced legislation, 
along with Senator Burr, that would require public colleges and 
universities to provide certain recently discharged service 
members the in-State tuition rates. This legislation is 
included as a provision of the pending bill S. 1982, the 
Comprehensive Veterans Health and Benefits Military Retirement 
Pay Restoration Act.
    Veterans often choose to begin their education immediately 
following separation from the military, making the university 
campus a primary entry point into civilian society. This can be 
a mixed blessing, as veterans are often nontraditional students 
whose attention is divided between having a family, maintaining 
a home, and working a full-time job.
    Fortunately in addition to V.A., there are also things that 
schools can and are doing to assist veterans during this 
stressful time. However, the traditional higher education 
system has only just begun to accommodate the needs of 
nontraditional students. Institutions must learn how to best 
accommodate unique issues facing our military and veteran 
students including students who can unexpectedly be called to 
active duty and must interrupt their coursework for unknown 
lengths of time.
    In addition to these unique challenges, I am concerned that 
active duty service members and student veterans are suffering 
the consequences of a continued failure by some corporations to 
comply with the protections guaranteed to them in Federal law.
    I, along with many other members of this committee, was 
deeply troubled last week when it was revealed that the 
Department of Justice had filed a lawsuit and proposed 
settlement alleging Sallie Mae violated the rights of 
approximately 60,000 service members by failing to comply with 
provisions of the Servicemembers Civil Relief Act.
    The Veterans' Affairs committee held a hearing on this 
issue last year, and I will echo my comments. We must continue 
to improve education and outreach on the protections of the 
SCRA. Industry must redouble its efforts to improve the 
compliance with the Act. And finally, aggressive enforcement of 
these protections must continue when violations occur.
    I firmly believe that the brave men and women serving our 
country should not be subjected to the types of behavior we 
have seen from some in the private sector. These continuing 
violations are completely unacceptable and that behavior must 
cease.
    Let me conclude by saying that what I hope we can 
accomplish today is to foster a productive conversation about 
how schools are meeting the needs of veterans and service 
members, what more can be done to ensure veterans are not 
putting themselves into financial trouble in order to get an 
education and, ultimately identify what this committee, and the 
Veterans committee by extension, can do to assist with these 
efforts.
    I believe we have the right people here to answer these 
questions. I want to thank all of you for being here, and I 
look forward to a productive discussion.
    Senator Burr.

                       Statement of Senator Burr

    Senator Burr. Thank you, Senator Sanders, and thanks to 
Chairman Harkin and Ranking Member Alexander for giving us the 
opportunity to preside over this hearing.
    The series of Higher Education Act reauthorization hearings 
have been bipartisan in nature and extremely informative for 
the committee as we undertake a rewrite of our Nation's higher 
education laws. I applaud Senator Harkin and Senator Alexander 
for their commitment to these hearings and to the comedy with 
which they have both handled this.
    North Carolina is home to almost 800,000 veterans making my 
State one of the largest homes for veterans in the country. We 
take pride in that status, but also in the fact that a large 
percentage of those veterans choose to stay for our high 
quality colleges and universities.
    Today, we will hear from Kimrey Rhinehardt, vice president 
of Federal Relations at the University of North Carolina Chapel 
Hill or the University of North Carolina. The UNC System, 
through its UNC SERVES initiative, has become a model for the 
country for how a large university system can integrate 
veterans returning from service into the college setting in a 
way that caters to their individual needs, but also provides an 
environment that enhances their opportunity for completion.
    It is important to keep in mind how unique today's veteran 
and service member students actually are. Recent data indicates 
62 percent are first in their family to attend college compared 
to 43 percent for nonveteran civilian students. They also tend 
to be much older and an average age of 33 compared to their 
civilian peers 22.
    These students tend to commute to school, carry a full-time 
job, have dependents, which all makes the circumstances 
different and worth a college or a university's consideration 
when providing on-campus services.
    Additionally, as troops return from Iraq and Afghanistan, 
postsecondary institutions are facing the largest influx of 
veterans on their campus in generations. Higher education has a 
role to play in ensuring these heroes have an opportunity to 
succeed on their campus. I am proud of UNC's success in this 
regard. And I urge my colleagues to listen carefully to the 
good things happening in my State that can inform best 
practices for all States.
    With that, I hope that today's roundtable provides a robust 
conversation about these issues and I look forward to hearing 
from a great panel of witnesses. I welcome them all.
    Thank you.
    Senator Sanders. Thank you, Senator Burr.
    Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman.
    I am delighted that you have held this hearing today. and I 
very much look forward to having a conversation with our 
witnesses.
    It is of the utmost importance that our warriors are able 
to work toward their education goals while actively serving and 
once they return from the battlefield. Leaving school with 
significant student loan debt is a reality for too many 
Americans, but it is a particularly acute problem for our 
veterans, and this is unacceptable. We have to do everything in 
our power to ensure that our service members and veterans have 
the financial, social, and emotional support needed to succeed.
    Again, thank you for convening us. Thank you to our Ranking 
Member, and I look forward to the discussion that will ensue.
    Senator Sanders. Thank you.
    Senator Franken.

                      Statement of Senator Franken

    Senator Franken. I want to thank the witnesses for being 
here and I want to thank, you, Senator Sanders for all your 
work on veterans issues; thank you, Senator Burr.
    There are a lot of issues here that we will get into today, 
one of which is the skills that are--and I know Dr. Langdon, 
you speak this in your testimony--the skills that our veterans 
come to their college careers already having, and many have 
worked in communications and very high tech communications in a 
war zone, and then do not get any kind of credit for that. And 
I think that is among the issues that I discuss with veterans 
who are in colleges in Minnesota.
    There are a lot of other issues that we will get to today, 
and I want to thank you, Mr. Chairman, for holding this 
hearing, and look forward to your testimony, and our 
discussion.
    Thank you.
    Senator Sanders. Thank you very much, Senator Franken.
    OK. We have a great panel. Let me begin by introducing 
Lauren Thompson Starks, who serves as Senior Policy Advisor at 
the U.S. Department of Education in the Office of the Under 
Secretary.
    While at the Department, she has worked on a range of 
issues in higher education including interagency efforts to 
support career readiness for veterans and service members, and 
has worked with the V.A. to help redesign the Transition 
Assistance Program.
    Ms. Starks, welcome, and thanks for being here.

  STATEMENT OF LAUREN THOMPSON STARKS, SENIOR POLICY ADVISOR, 
    OFFICE OF THE UNDER SECRETARY, DEPARTMENT OF EDUCATION, 
                         WASHINGTON, DC

    Ms. Thompson Starks. Senator Sanders, Burr, and members of 
the committee.
    Thank you for the opportunity to participate in this 
roundtable. I am pleased to share how the U.S. Department of 
Education, working together with our partner agencies, is 
contributing to efforts that support the postsecondary success 
of service members, veterans, and their families.
    I would like to focus my remarks on the Department of 
Education's initiatives designed to increase access to quality 
and affordable educational institutions, remove barriers to 
degree completion, and foster practices that strengthen campus 
cultures for student, veteran, and service members' success.
    Following the President's August 2011 call to action for a 
comprehensive Federal approach to supporting a career-ready 
military, we have collaborated with the Departments of Defense, 
Veterans Affairs, Labor and other agencies on a redesign of the 
Transition Goals Plans Success program.
    Transition GPS is strengthening and expanding the 
information, counseling, and support available to transitioning 
service members. The Department of Education is providing 
expertise in areas such as postsecondary access, affordability, 
Federal financial aid, and adult learning strategies. We have 
contributed to the development and evaluation of modules on 
accessing higher education, and the career and technical 
training modules, and we have also continued to advise on 
program direction and assessments.
    Our core efforts also include providing our agency partners 
with transparency tools and resources to help students and 
families garner information about postsecondary access and 
costs, identify programs that meet their individual needs, and 
select among quality institutions and available Federal student 
aid options.
    Interagency coordination is not only helping to bridge the 
gap between military service and educational opportunities, but 
it is also helping to remove barriers to degree completion once 
students are enrolled.
    In August 2013, the Departments of Defense, Education, and 
Veterans Affairs formed the Academic Credentialing Task Force. 
The Task Force is dedicated to increasing awareness of 
promising practices and policies that promote awarding academic 
credit at postsecondary institutions for prior military 
training and experience.
    It is also facilitating the ability of these institutions 
to understand how military training and experience is relevant 
to their programs of study. And through these efforts, is 
supporting degree completion and career readiness among our 
Nation's veterans.
    The Department is also collaborating with our agency 
partners to support the implementation of the Principles of 
Excellence Executive Order No. 13607. These Principles are 
designed to ensure that service members, veterans, and their 
families are offered quality educational opportunities, and 
have the educational and financial information needed to make 
informed choices.
    The Principles ask educational institutions to do more to 
ensure support services for service members and veterans, which 
ultimately help foster learning communities where all students 
can thrive.
    The Principles also signal the Administration's commitment 
to strengthening accountability, and enforcement, and oversight 
within Federal education benefit programs. They are enhancing 
transparency to facilitate educational comparisons through 
tools like the Financial Aid Shopping Sheet and are also 
enabling mechanisms that empower students and families to get 
the support they need and deserve such as the new centralized 
student complaint system.
    As part of efforts to build on the Executive order, the 
Departments of Education and Veterans Affairs in conjunction 
with more than 100 education experts convened to review 
approaches that could be scaled and replicated to foster 
veterans' success on campus. The result was the 8 Keys to 
Success, a voluntary effort to promote best practices with the 
goal of fostering postsecondary environments that are committed 
to veterans' success, and to also ensure that veterans have 
access to the information they need to make decisions 
concerning their benefits.
    The 8 Key offer concrete steps postsecondary institutions 
can take to assist veterans and service members who are 
transitioning and assist them in completing their college 
degrees and obtaining career-ready skills.
    The strategies include a variety of steps including 
creating a culture of connectedness on campus, using uniform 
sets of data tools to collect and track information relating to 
veterans, and also collaborating with local communities and 
organizations.
    In closing, the Department of Education will continue 
working with our agency partners as we strengthen the ladders 
of opportunity for our veterans and service members to reach 
their educational and career goals.
    Thank you very much for this opportunity to highlight this 
information, and I look forward to today's discussion with you 
and fellow roundtable participants.
    [The prepared statement of Ms. Starks follows:]
              Prepared Statement of Lauren Thompson Starks
    Chairman Sanders, Ranking Member Burr, and members of the 
committee, thank you for the opportunity to participate in this 
roundtable. I am pleased to share how the U.S. Department of Education 
(ED), working together with our partner agencies, is contributing to 
efforts that support the postsecondary success of service members, 
veterans, and their families.
    I would like to focus my remarks on ED's initiatives designed to 
increase access to quality and affordable educational institutions, 
remove barriers to degree completion, and foster practices that 
strengthen campus cultures for student veteran and service member 
success.
 federal interagency collaboration and technical assistance to improve 
    access to quality and affordable educational institutions, and 
                      streamline degree completion
    Following the President's August 2011 call to action for a 
comprehensive Federal approach to supporting a career-ready military, 
we have collaborated with the Departments of Defense, Veterans Affairs, 
Labor, and other agencies on a redesign of the ``Transition Goals, 
Plans, Success'' (Transition GPS) program, which strengthens and 
expands information, counseling, and support available to transitioning 
service members.
    ED is providing expertise in areas such as postsecondary access, 
affordability, Federal financial aid, and adult learning strategies. We 
have contributed to the development and evaluation of modules on 
accessing higher education and career and technical training, and have 
continued to advise on program direction and assessments.
    Our core efforts also include providing our agency partners with 
transparency tools and resources to help students and families garner 
information about postsecondary access and costs, identify programs 
that meet their individual needs, and select among quality institutions 
and available Federal student aid options.
    Interagency coordination is not only helping to bridge the gap 
between military service and educational opportunities, but it is also 
helping to remove barriers to degree completion once students are 
enrolled.
    In August 2013, the Departments of Defense, Education, and Veterans 
Affairs formed the Academic Credentialing Task Force. The Task Force is 
dedicated to increasing awareness of promising practices and policies 
that promote awarding academic credit at postsecondary institutions for 
prior military training and experience, facilitating the ability of 
these institutions to understand how prior military training and 
experience is relevant to their programs of study, and supporting 
degree completion and career-readiness among our Nation's veterans.
   supporting the implementation of the ``principles of excellence'' 
                            executive order
    Executive Order 13607, ``Establishing Principles of Excellence for 
Educational Institutions Serving Service Members, Veterans, Spouses, 
and Other Family Members,'' (Principles) offers principles designed to 
ensure that service members, veterans, and their families are offered 
quality educational opportunities and have the educational and 
financial information needed to make informed decisions. The Principles 
ask educational institutions to do more to ensure support services for 
service members and veterans, which ultimately helps foster learning 
communities where all students can thrive.
    The Principles signal the importance, to student consumers, 
families, and institutions, of the Administration's commitment to 
strengthening accountability, enforcement, and oversight within Federal 
education benefit programs. They are enhancing transparency to 
facilitate educational comparisons, through tools like the Financial 
Aid Shopping Sheet, and are enabling mechanisms that empower students 
and families to get the support they need and deserve in accessing 
education benefits through the new centralized student complaint 
system.
          promoting best practices for veteran student success
    As part of efforts to build on E.O. 13607, the Departments of 
Education and Veterans Affairs, in conjunction with more than 100 
education experts, convened to review approaches that could be scaled 
and replicated to foster veterans' success on campus. The result was 
the ``8 Keys to Success''--a voluntary effort to promote best practices 
with the goal of fostering postsecondary environments that are 
committed to veterans' success and to ensure that veterans have access 
to the information they need to make informed decisions concerning 
their Federal educational benefits.
    The ``8 Keys'' offer concrete steps postsecondary institutions can 
take in order to assist veterans and service members in transitioning 
to postsecondary education, completing their college degrees, and 
obtaining career-ready skills. The strategies include creating a 
culture of connectedness on campus, coordinating and centralizing 
campus efforts for all veterans, collaborating with local communities 
and organizations to align services and supports for veterans, 
implementing an early alert system, utilizing a uniform set of data 
tools to collect and track information relating to veteran students 
(i.e., retention and degree completion), and developing systems to 
ensure sustainability of effective practices.
    ED will continue working with our agency partners as we strengthen 
ladders of opportunity for our veterans and service members to reach 
their educational and career goals. Thank you for the opportunity to 
highlight this information about key Department initiatives, and I look 
forward to today's conversation with you and fellow roundtable 
participants.

    Senator Sanders. Thank you very much, Ms. Starks.
    Dr. Thomas Langdon serves as director of State Liaison and 
Educational Opportunity in the Office of the Under Secretary of 
Defense for Personnel Readiness. In this role, he oversees the 
Department of Defense's Tuition Assistance Program, the TAP 
program, which allows nearly 280,000 service members to attend 
college courses at little or no cost.
    Dr. Langdon, thanks for being here.

  STATEMENT OF THOMAS L. LANGDON, DIRECTOR, STATE LIAISON AND 
EDUCATIONAL OPPORTUNITY, UNDER SECRETARY OF DEFENSE, PERSONNEL, 
AND READINESS, OFFICE OF THE DEPUTY UNDER SECRETARY OF DEFENSE 
   FOR MILITARY, COMMUNITY, AND FAMILY POLICY, ALEXANDRIA, VA

    Mr. Langdon. Chairman Sanders, Senator Burr, and 
distinguished members of the HELP committee.
    It is an honor to be able to contribute to today's 
discussion on the Department of Defense's voluntary education 
program. My remarks will highlight several ways the DOD 
provides oversight to facilitate service member education 
success. First, just a little about me so you may better 
understand my perspective.
    I enlisted in the Air Force in March 1977 as a military 
police officer. I spent nearly 29 years on active duty and I 
was heavily involved with education, mine and others. Without 
military tuition assistance and caring and competent counsel, 
meeting my educational goals would have been difficult at best. 
It is no exaggeration to say without the DOD voluntary 
education program I would not be sitting before you today.
    Over the past year, DOD has enhanced its programs and 
services to ensure that service members have access to 
education opportunities throughout their military careers. 
Education helps grow leaders who will sustain our force 
readiness and continue to make valuable contributions in the 
support of our Nation.
    For many, the decision to go to school is a complex one and 
proper oversight by DOD and the services, education counseling, 
and access to important information allows the service member 
to make informed choices. DOD's programs attract a large 
percentage of the eligible military population because they are 
designed to meet the unique needs of the off-duty service 
member.
    Each year, approximately one-third of our service members 
enroll in postsecondary coursework. Colleges and universities, 
through an extensive network, deliver classroom instruction at 
hundreds of military installations around the world and online 
to an ever-
increasing percentage of our service members. During 2013, over 
277,000 service members took more than 827,000 courses and 
earned over 55,000 degrees and certificates.
    Participation in DOD-supported voluntary education requires 
a service member to visit an education center, either in-person 
or online, through their services education portal. There are 
approximately 200 DOD education sites worldwide.
    At these centers, professional education counselors brief 
service members on their education options, provide assistance 
and develop an education plan, recommend tailored courses of 
study to meet their education goals, and provide information on 
financing to include DOD tuition assistance, grants, loans, or 
other available funding options.
    Over the past year, the Department's priority has been 
implementing the requirements of the Executive Order 13607, 
establishing principles of excellence. These efforts are part 
of a robust interagency collaboration between the Consumer 
Financial Protection Bureau, the Federal Trade Commission, the 
Departments of Defense, Education, Veterans Affairs, and 
Justice.
    The initiatives include enhancements to the DOD Voluntary 
Education Partnership Memorandum of Understanding that just was 
issued on the 15th of May; the postsecondary education 
complaint system and the development of the postsecondary 
education outcome measures. In addition, DOD has participated 
in interagency Military Credentialing and Licensing Task Force 
which is dedicated to identifying, supporting, and sharing 
strategies for institutions of higher education. One of the 
major efforts is for a better understanding of the Joint 
Services Transcript process.
    Service members rely on DOD voluntary education programs to 
help them attain their personal and professional goals, and it 
is made possible because DOD and the entire Federal Government 
recognize the high value of education programs supporting 
military advancement and the successful transition of service 
members to civilian workforce.
    The Department remains committed to effectively delivering 
voluntary education programs that meet the changing needs of 
our service members.
    I thank you for the opportunity to be here today, and I 
look forward to your questions.
    [The prepared statement of Mr. Langdon follows:]
                Prepared Statement of Thomas L. Langdon
    Chairman Sanders, Ranking Member Burr, and distinguished members of 
the HELP committee, it is an honor to be able to contribute to today's 
discussion on the Department of Defense's (DoD) Voluntary Education 
Program. I will highlight the Memorandum of Understanding (MOU) between 
DoD and individual institutions of higher learning and the new 
interagency Postsecondary Education Complaint system.
    The Department's Voluntary Education Program provides valuable 
learning opportunities for servicemembers, contributing to enhanced 
readiness of our forces. Education helps our servicemembers be better 
Soldiers, Sailors, Airmen, and Marines. Through education and 
experience, using tuition assistance (TA), we grow leaders, who will 
sustain our force readiness and continue to make valuable contributions 
in support of our Nation. Allow me to share the profile of typical TA 
users.

    <bullet> They work full-time and are part-time students;
    <bullet> They take an average of three courses per year and less 
than 1 percent ever reach the $4,500 annual ceiling;
    <bullet> The majority complete their education after leaving the 
military;
    <bullet> They attend multiple institutions and take about 7 years 
to earn an Associates Degree;
    <bullet> They do not usually graduate from the school where they 
took their first course;
    <bullet> They blend how they attend school between traditional 
classroom and online (79 percent take some online courses);
    <bullet> They do not immediately seek employment upon earning their 
degree; and
    <bullet> They have breaks in their education due to circumstances 
such as deployments and transfer of duty station.

    For many, the decision to go to school is a complicated one and 
proper oversight by DoD and the Services, education counseling, and 
access to important information allows servicemembers to make informed 
choices. DoD programs are designed to meet the unique needs of the 
military off-duty student and, therefore, attract a large percentage of 
the eligible military population.
    Approximately one-third of our servicemembers enroll in post-
secondary courses leading to undergraduate and graduate degrees or 
certificates each year. Colleges and universities, through an extensive 
network, deliver classroom instruction at hundreds of military 
installations around the world and on-line, to an ever-increasing 
percentage of our servicemember students. Additionally, servicemembers 
can also earn college credits for learning that takes place outside the 
traditional classroom through College Level Examination Program (CLEP) 
testing and assessment of their military training.
    DoD has increased its assistance over the last year through its 
Voluntary Education programs and services, ensuring that opportunities 
for learning continue to exist for servicemembers throughout their 
military careers and preparing them for lifelong learning after they 
leave the military.
     oversight of military ta--facilitating service member success
    Participation in DoD-supported Voluntary Education requires 
servicemembers to visit an education center, either in person or on-
line through their Service education portal. There are approximately 
200 DoD education sites worldwide, including contingency areas in 
Afghanistan. At these centers, professional education counselors 
present servicemembers with an extensive menu of options, provide 
details about specific programs, recommend tailored courses of study 
that meet servicemembers' goals, and provide information on education 
financing, including information on the TA program, grants, loans and 
other available funding options. Prior to using military TA, 
servicemembers must establish an education goal and an education plan. 
servicemembers, through their Service's education portal, request TA 
for a course(s) outlined in their approved education plan, and an 
education counselor reviews the servicemembers' education record and 
education plan prior to granting approval.
    Even with the financial support DoD provides, nearly all 
servicemembers, and especially those taking graduate level courses, 
incur out-of-pocket expenses. This gives each student a financial stake 
in their success. Also, servicemembers failing to complete or receiving 
an `F' in a course must reimburse DoD for the TA received for the 
course, and servicemembers' failing to maintain a 2.0 undergraduate or 
3.0 graduate grade point average (GPA), must pay for all courses until 
they raise their GPA sufficiently.
     oversight of military ta--ensuring quality education programs
    Over the last year, the Department's priority was to finalize 
implementation of our efforts consistent with Executive Order 13607: 
Establishing Principles of Excellence for Educational Institutions 
Serving Service Members, Veterans, Spouses and other Family Members. 
This includes multiple initiatives, such as the launch of a centralized 
online reporting system, enhancements to the DoD Voluntary Education 
Partnership Memorandum of Understanding (MOU), and development of 
postsecondary education outcome measures. All of these efforts are part 
of a robust interagency collaboration among DoD and the Departments of 
Education, Veterans Affairs, and Justice, along with the Consumer 
Financial Protection Bureau and the Federal Trade Commission. These 
agencies are working together to enable military students and their 
families to make good educational choices using comprehensive 
information about the available programs and institutions that offer 
them.
    The quality of education provided to our servicemembers is 
essential to the Department, and underpinning this effort is DoD's 
requirement that all post-secondary institutions participating in the 
TA program, whether they are physically located on our installations or 
elsewhere, be accredited by an accrediting body recognized by the U.S. 
Department of Education. Currently, over 3,200 institutions with more 
than 4,400 sub-campuses, have signed the DoD MOU. The new MOU was 
published in the Federal Register on May 15, 2014, as part of Change 2 
to Department of Defense Instruction (DoDI) 1322.25, and it requires 
all participating institutions to adhere to the Principles of 
Excellence as listed in Executive Order 13607:

    <bullet> Provides students with an education plan;
    <bullet> Informs students of the availability and eligibility of 
Federal financial aid before arranging private student loans;
    <bullet> Ensures new course or program offerings are approved by 
the institution's accrediting agency before student enrollment;
    <bullet> Allows servicemembers to be re-admitted to a program if 
they are temporarily unable to attend class or have to suspend their 
studies due to military requirements;
    <bullet> Provides a refund policy for military students consistent 
with the refund policy for students using Department of Education 
Federal student aid (Title IV); and
    <bullet> Designates a point of contact for academic and financial 
advising.

    DoD is also working on other education initiatives. The interagency 
effort to identify postsecondary education outcome measures will 
provide information on available educational programs to support 
informed decisionmaking about educational choices, especially as they 
relate to veterans and servicemembers. The Departments of Defense, 
Education, and Veterans Affairs have worked together to propose a set 
of outcome measures to capture important information on students' 
experiences during school, upon completion of a degree or certificate, 
and post-graduation, using existing administrative data.
    DoD also participates in the interagency Military Credentialing and 
Licensing Task Force. The President established this forum to identify 
opportunities for servicemembers to earn civilian occupational 
credentials and licenses without the need for additional training. The 
Interagency Academic Credentialing Workgroup is dedicated to 
identifying, supporting, and sharing strategies for institutions of 
higher education to use when evaluating military training and 
experience in order to award appropriate amounts of academic credit for 
the skills and knowledge servicemembers gain through their service. For 
example, we have developed multiple webinars for the education 
community to help them better understand the Joint Service Transcript 
(JST) and the American Education Council (ACE) evaluation process.
    The JST provides documentary evidence to colleges and universities 
of the professional military education, training, and occupation 
experiences of servicemembers and veterans. JST is an official 
transcript tool that validates and documents those courses and 
occupations for servicemembers and veterans. From November 1, 2014 
through April 7, 2014, 4,873 transcripts were requested and sent to 
colleges and universities.
    ACE's Military Evaluations program has reviewed and made college 
credit recommendations for thousands of military courses since the 
early 1940s and, in 1974, began the evaluation of military occupational 
specialties. More than 2,200 higher education institutions recognize 
the ACE course credit recommendations for granting credit to their 
military students. The webinar sessions clarify the review process and 
the quality measures that are used in determining credit 
recommendations and increase the awareness, use, and benefit of the 
JST.
    The explanation of both the ACE evaluations and JST will be 
included in the updated Transition GPS Accessing Higher Education 
curriculum, which will communicate the transfer of academic credit and 
military training to transitioning servicemembers. The goal was to 
update portions of the Education part of the Transition Assistance 
Program to better educate transitioning servicemembers on the proper 
award of academic credit. While some postsecondary institutions have 
active policies in place to award credit, the ultimate goal of the 
workgroup is expanding the number of institutions with effective 
military credit policies.
    Finally, the Defense State Liaison activities have been integral to 
facilitating change at the State level. As of May 15, 2014, 45 States 
have passed legislation or an Executive order requiring their 
educational institutions to evaluate military training and experience 
toward the award of academic credit. In addition, 31 States have 
enacted legislation regarding in-State tuition impacting newly 
separating servicemembers.
      dod oversight of military ta--preventing predatory practices
    DoD has strengthened its policies regarding on-installation access 
to our servicemembers. Institutions' access to military installations 
is allowed only in order to provide education, guidance, and training 
opportunities, and to participate in education fairs. Marketing firms 
or companies that own and operate higher learning institutions do not 
have access. Institutions must meet the following requirements:

    <bullet> Have a signed MOU with DoD;
    <bullet> Be chartered or licensed by the State government in which 
the services will be rendered;
    <bullet> Be State-approved for the use of veteran's education 
benefits;
    <bullet> Participate in title IV programs (eligible and 
participating under Department of Education rules, students are 
eligible for Federal support);
    <bullet> Be accredited by an accrediting body recognized by the 
U.S. Department of Education; and
    <bullet> Have an on-base student population of at least 20 military 
students.

    On January 30, 2014, DoD along with agency partners--Veterans 
Affairs, Education, Justice, the Consumer Financial Protection Bureau, 
and the Federal Trade Commission--launched the new Postsecondary 
Education Complaint System (PECS). The online reporting system, part of 
the Executive order on Principles of Excellence, is intended to help 
ensure that students are equipped with comprehensive information to 
make school and program choices that meet their educational goals. It 
is designed to empower military students and their families to report 
negative experiences with educational institutions and provide the 
Federal Government the information it needs to identify and address 
unfair, deceptive and misleading practices.
    The initial reaction to the PECS has been overwhelmingly positive. 
Within 24 hours of launch, the PECS received over 1,740 unique web page 
views and 37 complaints. As of May 15, 2014, DoD has processed 146 
complaints. DoD is committed to working with each educational 
institution and student to reach a resolution that satisfies both 
parties. Over 60 percent of the complaints are regarding DoD or 
institutional processes or policies as opposed to substantiated 
complaints against a school such as deceptive recruiting and marketing 
practices. The complaint records and their resolutions are contained 
within a centralized repository, the Consumer Sentinel Network, making 
the information accessible by the Departments of Veterans Affairs, 
Defense, and Education, all of whom review schools for compliance and 
program eligibility, as well as the law enforcement agencies that would 
prosecute any illegal practices. The inter-agency team is also engaged 
in establishing servicemember and veteran outcome measures directed by 
Executive Order 13607 that will assist in ensuring continued quality at 
both the program and institution level. These measures will attempt to 
determine performance through metrics such as retention rates, 
persistence rates, and time-to-degree (or credential) completion.
                               conclusion
    servicemembers rely on the DoD Voluntary Education Program to help 
them become better Soldiers, Sailors, Airmen, Marines, and citizens. 
During fiscal year (FY) 2013, approximately $540,400,000 taxpayer 
dollars supported 277,800 servicemembers who took 827,100 courses and 
were awarded 55,700 degrees/certificates. This was possible because DoD 
and the entire Federal Government are unified when it comes to placing 
a high value on educational programs that support the professional and 
personal development and the successful transition of servicemembers to 
the civilian workforce. It is an honor and a privilege to work among a 
team of professionals dedicated to providing our servicemembers and 
their families with high-quality educational opportunities in pursuit 
of their personal and professional goals. The Department of Defense 
remains committed to effectively delivering voluntary education 
programs that meet the changing needs of the military. Mr. Chairman, 
this concludes my statement.

    Senator Sanders. Dr. Langdon, thanks very much.
    William Hubbard is the vice president of External Affairs 
for the Student Veterans of America. Mr. Hubbard joined the 
Marine Corps at age 17 and continues to serve with the 4th 
Marine Logistics Group as a drilling reservist out of Joint 
Base Anacostia-Bolling. He is a graduate of American University 
where he studied international relations.
    Mr. Hubbard, thanks very much for being here.

   STATEMENT OF WILLIAM HUBBARD, VICE PRESIDENT OF EXTERNAL 
      AFFAIRS, STUDENT VETERANS OF AMERICA, WASHINGTON, DC

    Mr. Hubbard. Senator Sanders, Senator Burr, and esteemed 
colleagues.
    Thank you for having Student Veterans of America here today 
to share our thoughts on examining access and supports for 
service members and veterans in higher education. As the 
premiere advocate for student veterans in higher education, it 
is our privilege to share our on-the-ground perspective with 
you today.
    In 2008, veterans in colleges and universities across the 
Nation came together to form SVA, using a network of peer to 
peer relationships and determined to achieve beyond 
expectations, these veterans applied years of hard learned 
lessons in the service to the classroom, and they succeeded.
    To begin, we believe it is important to outline how we 
define success for student veterans. Success is when a student 
veteran makes a well-informed educational decision, achieves 
personal academic goals without incurring student loan debt, 
and secures gainful employment that propels them forward in 
their career aspirations.
    First, consolidation of information on how to make the most 
of the G.I. bill benefit is critical. This information could 
potentially help veterans avoid wasting months of G.I. bill 
benefits which may lead to veterans taking out unnecessary 
loans. The V.A.'s G.I. bill Comparison Tool is a good example 
of the kind of work we see as necessary.
    Second, as veterans graduate across the country, we believe 
that their debt burden will ultimately be the single largest 
inhibiting factor to long-term success. As a contributing 
factor to this debt, we remain concerned that some technical 
and career colleges claim to offer credentials and 
certifications, but students are not able to complete specific 
exams due to a lack of proper accreditation leading to the loss 
of valuable benefits and years of study.
    There are different pieces to the puzzle that we must 
identify for the student veteran to fully achieve their goals; 
institutions, individuals, and communities. We refer to these 
as the three pillars. When these are strong, student veteran 
achievement is high. These pillars set veterans up for success 
in the academic setting and after graduation.
    With programs like the Department of Veterans Affairs, that 
success on campus and support from postsecondary institutions, 
veterans are operating in environments where they are prone to 
excel. With the right tools and resources, SVA sees no limit to 
what student veterans can achieve in higher education and 
beyond.
    When empowered with environmental factors for success, the 
investment that America has made in the G.I. bill and its 
veterans becomes an even clearer asset to the economy. By 
increasing access to higher education and removing barriers to 
degree attainment, we can set up our veterans for long-term 
success.
    We thank Senator Sanders, Senator Burr, and our present 
colleagues for your time, attention, and devotion to the cause 
of veterans in higher education.
    As always, we welcome your feedback and questions on this 
important topic.
    [The prepared statement of Mr. Hubbard follows:]
                 Prepared Statement of William Hubbard
    Senator Sanders, Senator Burr and esteemed members of the HELP 
Committee: Thank you for inviting Student Veterans of America (SVA) to 
submit our thoughts on ``Examining Access and Supports for 
Servicemembers and Veterans in Higher Education.'' As the premier 
advocate for student veterans in higher education, it is our privilege 
to share our on-the-ground perspective with you today.
    In 2008, veterans in colleges and universities across the Nation 
came together to form SVA. Using a network of peer-to-peer 
relationships, and determined to achieve beyond expectations, these 
veterans applied years of hard-learned lessons in the service to the 
classroom, and they succeeded.
    SVA's top priorities include improving access to higher education 
and scaling effective services that empower student veterans to 
graduate on time, with little-to-no student debt, while preparing 
student veterans for fulfilling futures. We look forward to this 
important conversation and hope to share the perspective of student 
veterans in higher education with you today.
                    a look at the current landscape
Setting the Definition of ``Success''
    To begin, we believe it is important to outline how we define 
``success'' for student veterans. Success is when a student veteran 
makes well-informed educational decisions, achieves personal academic 
goals without incurring student loan debt, and secures gainful 
employment that propels them forward in their career aspirations.
The Importance of Higher Education for Veterans
    As quintessential nontraditional students, student veterans face a 
myriad of challenges that most of their peers in the classroom do not; 
they are generally older, more likely to have families, and often have 
significant financial responsibilities not shared by most 18- to 22-
year-olds. However, unlike other nontraditional students, many veterans 
deal with the added challenge of juggling academics with their 
transition to higher education. In some cases, temporary withdrawals 
from school to deploy or train are the norm for many National Guardsmen 
or Reservists, which often elongates their path to completion or it can 
put it on hold altogether.
    Regardless of the challenges, it is clear that a postsecondary 
degree or credential is critical for success in today's global economy. 
Using data from the last fiscal year, the Bureau of Labor Statistics 
illustrated the importance of higher education, as seen in Figure 1. 
For those who achieved an associate's degree, unemployment dropped to 
5.4 percent and for those with a bachelor's or greater, that drops even 
further to 4 percent and below.\1\
---------------------------------------------------------------------------
    \1\ U.S. Bureau of Labor Statistics, U.S. Department of Labor, 
``Earnings and unemployment rates by educational attainment'', http://
www.bls.gov/emp/ep_chart_001.htm (Access May 2, 2014)



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                 increasing access to higher education
The Key Components of Consumer Awareness
    The decision to pursue a degree in higher education can be daunting 
for some, but recent developments like the Department of Veterans 
Affairs' (VA) GI Bill Comparison Tool have made that process more 
approachable. We continue to work with the VA to refine this tool so 
future generations can access critical information to support their 
decisionmaking process. We believe this is a good first step, but this 
tool is not the complete solution. Further consolidation of information 
on how to make the most of the GI bill benefit is necessary. This 
information could potentially help veterans avoid wasting months of GI 
bill benefits, which may lead to veterans taking out unnecessary loans.
    As veterans graduate across the country, we believe that their debt 
burden will ultimately be the single largest inhibiting factor to long-
term success. There is a common misconception that veterans who go to 
school on the GI bill have a ``free ticket'', but we know this is 
simply not true.
    As an earned benefit, not only is it not free, it may not always 
cover the full cost of an education. Some student veterans take longer 
to complete their degree, due to being nontraditional students. In such 
scenarios, student veterans likely take on additional loans to complete 
or risk withdrawing short of graduation. While many veterans may not 
have a clear understanding of how much their education benefits will 
impact their overall cost of attendance, others face abusive and 
misleading practices across sectors of education that can result in 
undue and unnecessary debt burdens.
    We remain concerned that some technical and career colleges claim 
to offer credentials and certifications, but students are not able to 
complete specific exams due to a lack of proper accreditation, leading 
to the loss of valuable benefits and years of study. We applaud the 
bipartisan efforts of the dozens of State Attorneys General working to 
curb this practice among the worst offenders, and would like to work 
with this committee and the Congress to improve the laws preventing 
this despicable practice.
    We also find that being able to access a full range of financial 
data is critical for institutions to be able to effectively counsel 
their students on their financial status, as well as for the individual 
to have the highest level of consumer awareness. Greater awareness 
allows student veterans to make informed choices that are aligned with 
their personal career aspirations.
A Continued Fight for In-State Tuition
    Many student veterans continue to be forced to pay out-of-State 
tuition costs, despite being ``state-less'' as a direct result of their 
military service. It is for this reason that the Veterans of Foreign 
Wars, the American Legion, and SVA continue to ardently fight for in-
State tuition for all veterans at the State and Federal levels. Less 
than half of all States offer in-State tuition for veterans and we 
continue to press the importance of this issue as a top contributor to 
education debt.\2\ We call on this group of leaders to continue to work 
toward ending this unnecessary and unjust punishment for the transient 
lifestyle in which our military is called to serve.
---------------------------------------------------------------------------
    \2\ Student Veterans of America, ``The Fight for In-State Tuition 
for Veterans'', http://www.studentveterans.org/what-we-do/in-state-
tuition.html (Access May 2, 2014).
---------------------------------------------------------------------------
                 supporting student veteran achievement
    There are different pieces to the puzzle that must be identified 
for the student veteran to fully achieve their goals. We refer to these 
as the ``Three Pillars'' that contribute to student veteran success, 
and we encourage this group of leaders and other researchers to focus 
on them individually as well as collectively.

    <bullet> Pillar 1--Institutions: Institutional support for student 
veterans is an important aspect of maintaining a strong pipeline of 
successful veteran graduates. The ability of the college or university 
to efficiently process student veteran benefits, transfer credits, or 
assist in job placement, is of crucial importance to the success of 
veterans. Flaws at this level, as well as unwelcoming or distrustful 
academic or professional environments, continue to act as major 
barriers to the success of some student veterans.
    <bullet> Pillar 2--Individuals: Establishing an environment for the 
student veteran to fluidly interact with the institution and the 
community is a determining factor in whether or not they will achieve 
their goals. Those who do not feel welcome may not persist in their 
studies.
    <bullet> Pillar 3--Communities: An established network across 
various university offices, academic networks, and career services 
enables the student veteran to make the transition from the campus to a 
fulfilling career. This may start with the institution's outreach to 
potential employers, but is ultimately the responsibility of all of us 
to ensure that employers understand the strengths of veterans in the 
workplace.

    When the Three Pillars--institutions, individuals, and 
communities--are strong, student veteran achievement is high. These 
pillars set veterans up to succeed in an academic setting and after 
graduation. With programs like the Department of Veterans Affairs' 
``VetSuccess On Campus'' (VSOC), and support from postsecondary 
institutions, veterans are operating in environments where they are 
prone to excel.
                           our final thoughts
    With the right tools and resources, SVA sees no limit to what 
student veterans can achieve in higher education and beyond. When 
empowered with environmental factors for success, the investment 
America has made in the GI bill and its veterans becomes an even 
clearer asset to our economy. By increasing access to higher education 
and removing barriers to degree-attainment, we can set our veterans up 
for long-term success.
    We thank Senator Sanders, Senator Burr, and our present colleagues 
for your time, attention, and devotion to the cause of veterans in 
higher education. As always, we welcome your feedback and questions on 
this important topic.

    Senator Sanders. Mr. Hubbard, thank you very much for your 
testimony.
    David Carlson is the coordinator of Student Veteran 
Services at the University of Vermont. Originally from 
Burlington, VT, David served for 4 years in the U.S. Marine 
Corps as an infantry assaultman from 2004 to 2008. He deployed 
twice in support of operation Iraqi Freedom fighting in 
Fallujah, Iraq in 2005 and Ramadi, Iraq in 2006 where he was 
commended for his actions while under direct enemy fire.
    After completing his military service, David enrolled at 
the University of Vermont using the post-9/11 G.I. bill. David 
was a cofounder of the Student Veterans organization on UVM's 
campus and later served as the Vermont state director for 
Student Veterans of America.
    Mr. Carlson, thanks very much for being with us.

  STATEMENT OF DAVID CARLSON, COORDINATOR OF STUDENT VETERAN 
        SERVICES, UNIVERSITY OF VERMONT, BURLINGTON, VT

    Mr. Carlson. Good morning, Mr. Chairman, Senator Burr, 
members.
    Respectfully, the University of Vermont is a public 
research land grant university located in Burlington, VT. I am 
the coordinator of Student Veteran Services for UVM and as 
Senator Sanders said, I served in the United States Marine 
Corps where I deployed three times in 4 years, and then 
attended UVM on the post-9/11 G.I. bill.
    For me, UVM was a great place to transition from being an 
active duty Marine back into the civilian world. I learned to 
leverage and articulate the skills, leadership, and attitude 
that I gained in the Marines, and apply them in the workforce.
    My current position has two main roles, which allow me to 
be successful supporting veteran transitions. The first role is 
very basic. It is helping students understand the admission 
process at the University and how to access V.A. education 
benefits. That involves assisting with the application process, 
submitting accurate enrollment information, monitoring V.A. 
payments, and making sure that students understand their V.A. 
education benefits.
    To accomplish that, we have to understand V.A. and DoD 
systems, have associated norms and rules for accessing 
information and accomplishing tasks, and likewise, so do 
institutions of higher learning.
    Students navigating both V.A. and higher education systems 
must understand the differences between those disparate 
bureaucracies in order to be successful.
    This is the basic level and no further levels of support 
can be successful without that process taking place accurately 
and in a timely fashion. I am still learning and will continue 
working hard to learn how to quickly, accurately, and correctly 
certify student enrollment. V.A. technical support, liaison 
availability, and partnership are critical to the success of 
schools administering V.A. education benefits.
    My second role at UVM is implanting an all-inclusive 
student veteran support system, which focuses on educating 
students about what is available to them on campus and in the 
community.
    UVM is creating a system of support and encouragement for 
veterans throughout the entire higher education process from 
engagement with student veterans through the higher education 
process. From first contact with a prospective student all the 
way through successful academics, to graduation, and engagement 
with the career center. That support includes academic; 
financial aid; social, that is peer support through student 
veteran organization, a student-run club and member of Student 
Veterans of America; mentorship, for example, faculty, staff, 
and senior students; and personal wellness.
    When describing what I do, I think of Maslow's hierarchy of 
needs. We need to make sure that students understand their 
benefits and that they are working before we can proceed to 
providing higher levels of support. It is important for me to 
note that I see both student and system barriers to accessing 
higher education for military veterans at UVM. Many veterans 
might be reticent to receive help, but as a veteran coordinator 
we have personal domain expertise, I use my experience to 
breakdown some of those barriers with knowledge, social 
management, and awareness.
    I work hard to build trust-based relationships with 
students, which gives me the ability to become a trusted 
advisor and build bridges through previous layers of distrust 
or misunderstanding with V.A. or UVM.
    The fact is that this is high stakes. This is an important 
issue which has the ability to influence people's lives, 
student success or failure in their future are somewhat 
dependent on being successful in college. That is important to 
me. Student veteran success matters to me in a huge, personal 
way and I am so thankful and humble to have had access to a 
fantastic education benefit.
    Thank you for the opportunity to be here today and I look 
forward to your questions.
    [The prepared statement of Mr. Carlson follows:]
                  Prepared Statement of David Carlson
    Good morning, the University of Vermont is a public research land-
grant university located in Burlington, VT. My name is David Carlson 
and I am the coordinator of Student Veteran Services for UVM. I served 
in the U.S. Marine Corps, where I deployed three times in 4 years, and 
then attended UVM using the Post-9/11 GI bill. For me, UVM was a great 
place to transition from being an active duty marine back to the 
civilian world. I learned to leverage and articulate the skills, 
leadership, and attitude I gained in the marines, and apply them in the 
workforce. My current position has two main roles which allow me to be 
successful supporting veterans' transitions.
    The first role is basic; it is helping students understand the 
admission process at the University and how to access to VA education 
benefits. That involves assisting with the application process, 
submitting accurate enrollment information, monitoring VA payments, and 
making sure that students understand their VA education benefits. To 
accomplish that, we have to understand that VA and DoD systems have 
associated norms and rules for accessing information and accomplishing 
tasks and, likewise, so do institutions of higher learning. Students' 
navigating both VA and higher education systems must understand the 
differences between those two disparate bureaucracies in order to be 
successful. That is the basic level, and no further levels of support 
can be successful without that process taking place accurately and in a 
timely fashion. I am still learning, and will continue working hard to 
learn how to quickly, accurately and correctly certify student 
enrollment. VA technical support, liaison availability and partnership 
are critical to the success of schools administering VA education 
benefits.
    My second role at UVM is implementing an all-inclusive student 
veteran support system which focuses on educating students about what 
is available to them on campus and in the community. UVM is creating a 
system of support and encouragement for veterans through the entire 
higher education process, from first contact with a prospective student 
all the way through successful academics, to graduation and engagement 
with the Career Center. That support includes academic, financial aid, 
social (i.e., peer support through the Student Veteran Organization, a 
student-run club and member of Student Veterans of America), mentorship 
(e.g., faculty, staff, senior students), and personal wellness. When 
describing what I do, I think of Maslow's Hierarchy of Needs. We need 
to make sure students understand their benefits, and that they are 
working, before we can proceed to providing higher levels of support.
    It is important for me to note, that I see both student and system 
barriers to accessing higher education for military veterans. Many 
veterans might be reticent to receive help but as a veteran coordinator 
with personal domain expertise, I use my experience to break down some 
of those barriers with knowledge, social management and awareness. I 
work hard to build trust-based relationships with students which gives 
me the ability to become a trusted advisor and build bridges through 
previous layers of distrust or misunderstanding with VA or UVM.
    The fact is that this is high stakes. This is an important issue 
which has the ability to influence people's lives; students' success or 
failure, and their future, are somewhat dependent on being successful 
in college. That's important to me. Student veteran success matters to 
me in a huge personal way and I'm so thankful, and humble to have had 
access to a fantastic education benefit.
    Thank you for the opportunity to be here today and I look forward 
to your questions.

    Senator Sanders. Thank you, very much, Mr. Carlson.
    Senator Burr, did you want to introduce Ms. Rhinehardt?
    Senator Burr. Mr. Chairman, I will never pass on the 
opportunity to introduce not only a person who I think is 
intricately involved in the issue that we are here to discuss, 
and that is veterans' education and her role at the University 
of North Carolina System. She was somebody whom I had the 
opportunity to have on my staff for a period of time, who 
understands the side of the dais that we are on, and who 
understands what it is like to sit behind those of us who get 
all the accolades for what we do, and never get recognized for 
the tremendous work that our staff does at the committee and at 
the personal level.
    Kimrey Rhinehardt, one, is passionate about the job she 
does. She understands in great depth the people that are 
impacted by the legislation that we write. And she is 
passionate about making sure that, at the end of the day, her 
influence is for us to do the right thing.
    She has been instrumental in the academic outreach by the 
University of North Carolina to active duty DoD, to our bases 
in North Carolina, to the continuing education of our active 
duty forces. She is also instrumental in trying to understand 
and continuing to refine the difficulties of integration of a 
veteran into today's college life. And, someone whom I think 
has a unique perspective on what those individuals go through 
and what institutions need to do to accommodate a host of 
different needs that present themselves with the decisions that 
veterans come with.
    Let me also say, Mr. Chairman, as you know, she has been an 
outspoken advocate for yours and my effort to require States to 
offer in-State tuition which, I personally believe, is the 
right thing for us to do as a Nation, both from a policy 
standpoint and from a fiduciary standpoint.
    Kimrey, welcome back.

   STATEMENT OF KIMREY RHINEHARDT, VICE PRESIDENT OF FEDERAL 
    RELATIONS, UNIVERSITY OF NORTH CAROLINA, CHAPEL HILL, NC

    Ms. Rhinehardt. Thank you, Senator Burr, Mr. Chairman, I 
certainly hope that my mother and husband are watching right 
now.
    Thank you for inviting me to this important conversation. I 
would like to point out that my colleague from Vermont was a 
Marine assigned to Camp Lejeune in North Carolina. And I 
believe my fellow panelists have done an outstanding job of 
articulating all of the same challenges that UNC students face. 
So I am going to get right to the point, and maybe take a 
different approach.
    I work for the people of North Carolina. My employer, the 
University of North Carolina System is a large, 16-campus 
university system with 220,000 students, 55,000 faculty and 
staff. Approximately 8,000 of our students use some form of 
V.A. benefit to pay for their education. As Senator Burr has 
already articulated, North Carolina is a big military State and 
we are very proud of this.
    While 99.5 percent of us sleep quite comfortably in our 
beds at night, our friends and neighbors in North Carolina in 
uniform are protecting and promoting our freedom in places 
where we do not vacation.
    These men and women and their families have endured an 
unprecedented operational tempo and I am sure that we can all 
agree, they have more than earned the right to pursue a high 
quality and affordable higher education.
    I have worked with North Carolina's military since 2009 and 
here is what I have learned from them. They are smart. They are 
motivated. They find the university to be overwhelming. They 
want us to tell them how to navigate campus, preferably on one 
piece of paper without footnotes, caveats, and unnecessary 
runarounds. They do not want to ask for help. They have 
experience that cannot be replicated in the classroom setting. 
They do not want anything handed to them; they want to earn it.
    They do not understand why they have to take four semesters 
of Spanish when they are fluent in Dari and have used their 
language skill to negotiate a real outcome in Afghanistan. They 
like having other military affiliated students in their 
classes. They will not hesitate to challenge a professor's 
theory.
    Many do not want to talk about their military life. They 
want to find other people like them on campus. They do not have 
time to waste on climbing walls. They already did that. They 
pursue their degree efficiently.
    Here is what professors and other students tell me they 
have learned from military students.

          ``Wow. They are really smart. They do their homework, 
        turn it in on time, and do not make excuses. They add a 
        valuable dimension to classroom discussion. They make 
        everyone around them smarter just by being there. They 
        want to learn. We do not know what we do not know about 
        them. I should not have asked them what it was like 
        over there. We assume they all have PTSD, but they do 
        not. They want more military-affiliated students in 
        their classes and veterans that look just like you and 
        me.''

    Administrators ask the UNC System office, ``Tell us how to 
do this right. We want to get it right.'' So how does a 
university become a place of transition for veterans? 
Intentionally. We have come together as a university community 
to recalibrate normal. This new normal may take work, but it is 
worth it.
    The education that the service member needs is mission-
critical because the most important weapon that he or she has 
is not an assault rifle, but their mind. And when the service 
member makes the transition to veteran in civilian society, we 
want that veteran to remain in North Carolina for the long 
term. We want veterans to receive in-State tuition in the State 
of North Carolina. We want Medal of Honor awardees like Kyle 
White to receive in-State tuition in the State of North 
Carolina. The University can, and should be a natural place of 
transition for the veteran. They have earned their benefit.
    The University of North Carolina System commits itself to 
partnering with the military because national security should 
be a priority for all of us, not just the less than \1/2\ of 1 
percent of us that put the uniform on. We could all do 
something to contribute. The faculty, staff, and students of 
the University of North Carolina stand ready to do our part.
    Thank you, Mr. Chairman. This concludes my testimony.
    [The prepared statement of Ms. Rhinehardt follows:]
                Prepared Statement of Kimrey Rhinehardt
    Mr. Chairman and members of the committee, thank you for inviting 
me to join you today. Thank you for your leadership.
    The University of North Carolina system is comprised of 16 
university campuses. We have 220,000 students and approximately 55,000 
faculty and staff across the State of North Carolina. Nearly 8,000\1\ 
of our students use VA educational benefits to pay for some or all of 
their post-secondary education.
---------------------------------------------------------------------------
    \1\ UNC: Fall 2013 data.
---------------------------------------------------------------------------
    North Carolina is a big military State with 800,000 veterans, six 
major military installations with the third largest active military 
force in the country. This active-duty force is comprised of 120,000 
personnel, 12,000 members of the National Guard and their nearly 
145,000 spouses and children.
    As the State's public university, we are working hard to enroll, 
educate and graduate as many academically prepared service members, 
veterans and family members as possible. Our motivation is simple and 
our actions are intentional: the success of student veterans and their 
families at UNC institutions is linked to the success of the University 
and our State's future.
    In October 2010, the University of North Carolina system convened a 
working group known as ``UNC SERVES (UNC Systemwide Evaluation and 
Recommendation for Veterans Education and Services), to evaluate and 
recommend specific action steps for improving how the University system 
and its individual institutions serve veterans and their families. The 
UNC SERVES working group issued its report in April 2011.
    The University is making steady progress toward implementing UNC 
SERVES recommendations. Annually, we issue the ``UNC SERVES Resource 
Guide'' to highlight systemwide and campus progress with each of the 
action items. The UNC SERVES working group report and Resource Guides 
may be reviewed online at: http://www.northcarolina.edu/frc/uncserves/
serves.html.
   centralized information sharing and one-stop shopping for veterans
    Veterans are not typical students. Student veterans come to us from 
a highly structured, bureaucratic environment of the military and are 
often uneasy with the loosely structured, bureaucratic environment of 
the University. University admissions and enrollment processes can be 
complex. This is especially true for veterans. One of our top 
priorities is to centralize information sharing using a technology-
based platform to provide a virtual ``one-stop-shop'' for veterans. To 
access the University's virtual one-stop-shop: http://
www.uncserves.northcarolina.edu.
    Another technology-based resource in development is the North 
Carolina Military Educational Positioning System or ``NCMEPS.'' This 
Web site provides military-affiliated students with important resources 
to explore North Carolina's higher education options: both public and 
private. To access NCMEPS: http://www.ncmileps
.northcarolina.edu.
                     data collection and reporting
    The University has established systemwide, uniform data collection 
procedures to ensure that we can identify and track the academic 
progress of service members, veterans, spouses, and dependent family 
members.
       unc institutions align academic programs to student needs
    UNC campuses have a legacy of working with military-affiliated 
students and the military installations in North Carolina. Representing 
all UNC institutions, the UNC system office has academic advisors at 
Fort Bragg, aboard Camp Lejeune and at Coast Guard Air Station 
Elizabeth City.
    The University has specialized programs of interest to veterans and 
active duty military service members. Veterans are attracted to these 
programs because their military learning and experiences align with the 
academic program and prepare them for their desired career. And, many 
courses are structured to complement an adult student's life. Many 
student veterans have family responsibilities, part-time or full-time 
employment and other obligations.
                                closing
    The education that the service member needs is mission critical 
because the most important weapon that he or she has is not an assault 
rifle--but their mind. And, when the service member makes the 
transition to veteran in civilian society we want that veteran to 
remain in North Carolina for the long term.
    The University can and should be a natural place of transition for 
the veteran. They have earned their educational benefit.
    The University of North Carolina system commits itself to 
partnering with the military because national security should be a 
priority for all of us--not just for the less than half of 1 percent of 
us that serve in the armed forces. We can all do something to 
contribute. The faculty, staff and students of the University of North 
Carolina stand ready to do our part.
    Thank you, Mister Chairman. This concludes my testimony.

    Senator Sanders. Thank you all very much for your important 
testimony on a very important issue.
    We are all, as Ms. Rhinehardt indicated, deeply 
appreciative and knowledgeable about the sacrifices made by so 
many. And our job, and what this hearing is about, is to make 
sure that when people come back, they get the best education 
that they possibly can. And what we are here to discuss is what 
is going right and what is not going right, how do we improve 
it?
    Let me just start off with a very general question to Mr. 
Carlson, who is from my hometown. In a broad statement, Mr. 
Carlson, how is the G.I. bill working at the University of 
Vermont? What is positive about it, and what are some of the 
impediments and negatives that you see that veteran students 
are facing?
    Mr. Carlson. Thank you, Senator Sanders.
    The post-9/11 G.I. bill at the University of Vermont 
overall is working well and it worked well for me.
    Many of the positives are that according to lot pays for a 
student's in-State tuition and fees, it provides them with a 
very decent housing allowance to survive on while they are 
pursuing their education.
    However, some of the negatives are that it does cover that 
in-State tuition as we have discussed. The University of 
Vermont has recently increased from 35 to 45 undergraduate 
Yellow Ribbon Scholarships, which represents a tremendous 
amount of matched dollars from UVM and from the V.A. to allow 
out-of-State students to choose to attend the University of 
Vermont, to make that good transition, to come to a place where 
the campus climate is very accepting of diversity, whether that 
diversity is military or any other culture.
    Some of the real challenges that are experienced are 
accurately and quickly reporting enrollment information from 
the University of Vermont, which is its own large bureaucracy 
to V.A., which is its own bureaucracy. The two do not speak the 
same language and so, I find myself in the middle translating 
and ultimately de-conflicting when something goes awry. That is 
what I have to say.
    Senator Sanders. Let me ask Ms. Rhinehardt the same 
question. What is working well about the G.I. bill, and what 
are some of the impediments and problems that you see?
    Ms. Rhinehardt. What is working well is that we have 8,000 
students using a form of V.A. benefit on our campuses. And so 
for that, we thank the Federal Government and this Congress for 
extending that benefit.
    What is not working well is when the change was made to 
find savings associated with the G.I. bill a couple of years 
ago. Because of North Carolina's unique circumstances in which 
we have a pretty significant differential between out-of-State 
tuition and in-State tuition, we were actually able to cover 
many out-of-State students using the highest in-State tuition 
under the old rules. When the rules changed, we had a lot of 
students who were admitted under one set of rules and then 
enrolled thinking, ``This is my tuition,'' and were handed a 
great big surprise.
    Since that time, we have been fighting, really with anyone 
that will listen, to try to get in-State tuition for these 
students in North Carolina. That is our biggest challenge.
    Senator Sanders. These students are faced with a gap of 
several thousand dollars.
    Ms. Rhinehardt. Oh, many more thousands.
    Senator Sanders. What?
    Ms. Rhinehardt. I mean, probably close to $13,000-$14,000.
    Senator Sanders. Over a period of years?
    Ms. Rhinehardt. A year.
    Senator Sanders. A year? The gap is that high?
    Ms. Rhinehardt. Yes, sir. And you know, our friends in the 
private institutions--I do not want them to lose anything--but 
they have a much more generous benefit. They receive up to 
$18,500 or something along those lines. And when you are in a 
State like North Carolina, where your tuition is 
extraordinarily low, it would be great if we could have the 
$18,500 cap.
    Senator Sanders. OK. Other people.
    Mr. Hubbard, what is working well? What do you see?
    Mr. Hubbard. Thank you, Senator.
    I would say more broadly, the positive side of things: 
access. Student veterans are able to access an education 
whereas previously, they would not have had that opportunity.
    Many individuals have commented to me repeatedly,

          ``I am the first generation student in my family. Had 
        I not had the G.I. bill, I would not have been able to 
        have gotten an education. This has brought me to a 
        different level of education. I have gotten a higher 
        degree than I had before.''

    Which I think goes against the theory that individuals are 
using the G.I. bill to specifically get an Associate's Degree 
or a lower certification. They are going on to pursue higher 
levels of education with their G.I. bill.
    On the side of things that could be improved, I think 
individuals are often left to make a decision between a 4-year 
degree and perhaps a degree that would take longer, something 
in a STEM field, for example, engineering, math, science, 
technology. Those degrees may take a longer period of study, 
and as a result, they are forced to make that decision, in many 
cases, when they are balancing their family and trying to 
figure out how to pay for that fifth year, they often pursue a 
different field.
    I think also my colleague, Mr. Carlson, pointed out a great 
example of processes. The processes need to be improved so that 
they are streamlined to allow for a student veteran to take 
their benefit and make the most of it.
    Senator Sanders. OK. Thank you very much.
    Senator Burr.
    Senator Burr. Senator Sanders, let me share with my 
colleagues just a couple of things that Kimrey did not say.
    North Carolina's subsidy to higher education is extremely 
high for in-State students. I think that is obvious. We 
consider one to be an in-State student after they have a 1-year 
residency in North Carolina.
    So to Kyle White, who is a Medal of Honor winner as of last 
week, who chose to go to school in North Carolina after he 
separated from the active duty, his first year was as an out-
of-State student where he accumulated debt matched with his 
G.I. bill, but his second, third, and fourth year became an in-
State student under today's reimbursement.
    Our active duty forces that are stationed within North 
Carolina, their children receive in-State tuition on Day One. 
And we are going to do the right thing in North Carolina, but I 
think it is important for us to recognize the inequity that we 
created between public and private and it is magnified when you 
take a State like North Carolina that has a significant 
subsidy.
    Let me ask you, Mr. Carlson. What is the in-State/out-of-
State tuition at your institution?
    Mr. Carlson. Thank you, Senator.
    The in-State/out-of-State tuition gap, in-State tuition is 
generally about 40 percent of the out-of-State tuition.
    Senator Burr. OK. Another high subsidy.
    Mr. Carlson. It is significant. Yes, sir.
    Senator Burr. Mr. Hubbard, the Veterans Affairs committee, 
which Senator Sanders ranks, and I am the ranking member, has 
jurisdiction over many veterans education programs which, 
specifically under the Higher Education Act, we can change. It 
might be easy for the college going process for veterans and 
service members.
    What changes should we make, in your estimation, that would 
make it easier?
    Mr. Hubbard. Thank you for the question, sir.
    I believe often that there needs to be more communication, 
or needs to be more transparency. As student veterans come in, 
they need to have the right information to make the right 
decisions about their education benefits.
    If you are going to a university, for example, that is not 
accredited or might not allow you to have the certification at 
the end--that information in the end--you basically lose 
benefits. You lose a period of study. So that consumer 
information is very important.
    And then, having the communication with the school and the 
school have communication with the V.A. or DoD, as it were. I 
think that is very important. That entire process, that 
lifecycle, that education for veterans is very important.
    Senator Burr. Kimrey, what prompted the UNC System to 
embark on UNC SERVES and that initiative?
    Ms. Rhinehardt. The president at the time, Erskine Bowles, 
looked at me and said, ``Ms. Rhinehardt, you are getting down 
to Fort Bragg and you are going to find out what is going on 
with them down there.'' So I went down and I learned a whole 
lot about what I did not know, and immediately saw this 
incredible opportunity for our State. When you have special 
operations community as large as it is in this State.
    I spent 3 days this week embedded in a negotiation exercise 
with Green Berets, and there were students from other UNC 
campuses there. And I was like, ``What better opportunity is 
there?''
    We began to understand what the opportunity was and then we 
brought together people from across the UNC System, faculty, 
staff, and students. We all got in a room and said, ``What do 
we want to do about this? What do we want to change about the 
way we do business and the way we serve these students?''
    In very short order, which is not like a university, we 
issued a report that said, ``These are the things we want to 
do.'' That report did not sit on a shelf. We were very active. 
We monitor. We look at each of the best practices that, I will 
say, many of which came from the ACE Tool Kit, which is a very 
helpful tool for us. We learned what we did not know and now 
that we know, we can go do it.
    So I would say that is the thing that defines a university 
campus from being very active and aggressive in a campus that 
appears to not be doing something. It is not that they do not 
want to; they just do not know what to do.
    Senator Burr. What metrics does UNC use to gauge success?
    Kimrey Rhinehardt. We look at whether or not campuses have 
established central points of contact in key offices like 
financial aid office, the registrar's office, making sure that 
all of that information is published in a one-stop shop format. 
It is virtual. It is online. And our office makes sure that it 
is up to date so the veterans do not have to hunt and peck all 
over campus to figure out, ``Where do I go?'' That is the first 
thing.
    The second thing is that, you know, ``Is your campus 
developing programs that align with service member training and 
needs?'' We have many programs that offer courses on Saturdays 
and Sundays, and then we will have follow on study throughout 
the semester.
    An adult student cannot go to class on Monday, Wednesday, 
and Friday at 11 a.m. generally. I mean, I certainly cannot. I 
have a 9-year-old who goes to school. I work full-time and it 
is not different than someone like me.
    So to me, this military community is a microcosm of the 
much larger challenge, which is, how do we serve all 
nontraditional students?
    Senator Burr. Thank you.
    Thank you, Mr. Chairman.
    Senator Sanders. Thank you very much.
    Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman.
    As the entire panel has experienced, veterans often need 
financial aid beyond their G.I. benefits. And the Student 
Veterans of America's research has shown that many veterans 
continue their education beyond earning a certificate or 
undergraduate degree and need the support of aid provided under 
Title IV of the Higher Education Act.
    We know that as nontraditional students, veterans often 
must work, as well as attend to family and other obligations, 
as we just heard.
    However, working while in school can result in these 
veterans reducing or even eliminating their title IV aid 
because their income may exceed the Higher Education Act's 
Income Protection Allowance.
    I have been working toward the introduction of legislation 
that will address this issue head-on by raising the Income 
Protection Allowance for all students, including veterans, 
whether they are working to support themselves or supporting a 
family.
    I am hoping that the panel can help articulate the need for 
financial support beyond the G.I. bill and address the unique 
financial needs of the working student veteran. And I am hoping 
that you can also speak to how legislation to raise the Income 
Protection Allowance would help veterans come out of school 
with less debt.
    Mr. Carlson and Mr. Hubbard, I wonder if you can kick off 
the discussion of this topic?
    Mr. Hubbard. Thanks for the question, Senator.
    I believe you actually raise a very important point and 
that is nontraditional students in higher education. What we 
are finding is with our research, as you pointed out, over half 
veterans are doing well in higher education and we are seeing 
to raise that number.
    I think this points out something important, and that is, 
we have found a system, a process, a unique approach to 
supporting the nontraditional student in higher education. If 
we can apply that to other nontraditional students along with 
legislation like you point out, to raise the Income Protection 
Allowance, I think we can come onto a process that will enable 
nontraditional students to succeed.
    Research on nontraditional students is very old. At best 
estimates, 20 to 30 percent says that nontraditional students 
are graduating. Obviously, with student veterans in the upwards 
of 50-plus percent, that is much higher.
    If we can bring that gap together, I think we will have 
found a very significant breakthrough.
    Mr. Carlson. Thank you for the question, Senator.
    I believe that when we think about nontraditional students, 
especially military veterans, rolling out essentially what is 
concierge service, a single point of contact, so that they can 
have all of the information that they need directly, up front 
and they do not have to go from office to office within the 
university and within the Department of Veterans Affairs to 
understand what their benefits are. And if and when they are 
going to have an outstanding balance that would not be paid by 
those V.A. benefits, it is important for them to have that 
information up front and have it be complete so that they can 
make an informed decision.
    Senator Baldwin. Ms. Rhinehardt.
    Ms. Rhinehardt. I would like to point out, and laud the 
Student Veterans of America because of their work with the 
Million Records Project. What they did is they started to go 
deeper into understanding the analyses of who is doing what, 
how well are they doing. But what they did is they used data 
that actually reflects a much more accurate picture of who 
these students are. They worked with the Clearinghouse, the 
National Student Clearinghouse.
    I know that this Congress and the Department of Education 
are working closely to try to get IPEDS up to better reflecting 
transfer student needs and nontraditional students. But really, 
what SVA has done has really been the opening salvo for 
understanding who these students are, but using the most 
accurate date.
    Senator Baldwin. Mr. Chairman.
    Senator Sanders. Please.
    Senator Baldwin. I trust we will have a second round of 
questioning, so I will let my colleagues go, but I will 
followup with the program you were talking about because I 
think there is some interesting discussion that we can have 
about that too.
    Senator Sanders. Thank you, Senator Baldwin.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Last year, I visited Inver Hills Community College in 
Minnesota and I met with a group of veteran and military 
students who talked about how the training and skills that they 
had learned in the military do not easily transfer to college 
credits.
    One veteran told me that he did top secret communications 
work when he was deployed and yet, when he returned home, he 
could not transfer that training or knowledge into college 
credits in communications.
    This is for anyone: what can be done to support the veteran 
military students who have existing skills from military 
service or training, and are not able to turn those skills into 
college credits? Anyone. Just jump in.
    Mr. Hubbard. Thank you, Senator.
    I think that is actually a critical point the Student 
Veterans of America is working very hard toward. The idea of 
credits and credentialing is something that has come up time 
and time again, as I am sure you are aware of as well.
    I think there is a double approach here. From the student 
veteran perspective, it is a matter of translating those skills 
so that the universities can understand where they do apply; so 
coming from that side. And then from the other side, for the 
actual institution of higher learning, for them to accept those 
credits is often a difficult fight as well. If both of them can 
meet in the middle, I think that will be an opportunity for 
these student veterans in all States, to benefit from.
    A great example is if you, as you point out, have a 
communications background. You have done communications work 
for the military. Maybe you have done it for several years and 
you have proven that you have those skills. If the universities 
then point you to a Communications 101 class, that is a waste 
of your time.
    If you can go to a higher, or at least test out of some of 
those more basic courses, that will shorten your time to 
degree, which will then allow you to save those benefits for 
later education purposes.
    Mr. Carlson. Senator, thank you for the question.
    I think a big step forward that was made in that regard is 
the Joint Services Transcripts. Previously, as a Marine, I went 
to the University of Vermont with a SMART Transcript, which was 
Navy and Marine Corps, and some of those courses that I had 
completed while I was in the military may or may not have 
transferred to UVM, depending on their content and length.
    But as I see students coming in now with a Joint Services 
Transcript, many more of those credits are able to come into 
the university.
    Senator Franken. Ms. Rhinehardt.
    Ms. Rhinehardt. I am so glad you asked that question 
because the University of North Carolina is actually just 
beginning its intentional effort to divide the Military 
Articulation Agreement among all of our campuses, and we are 
turning, actually, to Minnesota's model for how to do that.
    Minnesota is leading the way nationally in articulating 
military learning into academic credit. Thank you to the State 
of Minnesota for helping UNC figure out the way forward on 
this.
    Senator Franken. We are getting there. How often are those 
kinds of skills that are learned during deployment and military 
service and military training are aligned with the skills gap 
that we have. We have higher unemployment among our veterans 
coming back and our young veterans especially.
    To what extent are those unbelievable skills that they have 
acquired while serving, do the higher education schools go and 
I am talking about 2-year community and technical colleges as 
well as the 4-year and say, ``Wow. This aligns so well with 
these jobs that exist that people cannot fill.''
    Ms. Rhinehardt. Sir, I have a great answer for you.
    Senator Franken. Good.
    Ms. Rhinehardt. Sorry, I get excited. He told you I got 
excited.
    Senator Franken. I know. That is good.
    Ms. Rhinehardt. UNC Chapel Hill School of Medicine, the 
chief of emergency medicine and the chair of the Jaycee Burn 
Center happen to have a military background, and they started 
working with the 18 Delta Combat Medics and their instructors 
down at Fort Bragg. And over the course of time, developed such 
a strong relationship that the combat medic instructors are 
actually coming up to Chapel Hill campus doing rotations 
embedded with all of the medical school faculty. It is actually 
going a step beyond that now, because they now understand each 
other and understand the skills that they have.
    UNC Chapel Hill--they do not currently have a physician 
assistant program--but we have a high need for rural emergency 
medicine professionals. And many of these men and women would 
love to live in North Carolina.
    And so, UNC Chapel Hill is actually in the process of 
developing a P.A. program that factors in the combat medic 
experience so that they do not have to go all the way as 
another P.A. candidate would. That experience is factored in. 
They do not have to learn how to take a pulse on Day One.
    Senator Franken. You are kind of suggesting that people who 
deployed in the military in the last 13 years somehow may be 
more expert on emergency medical service than they are given 
credit for.
    Ms. Rhinehardt. Well, the chief of emergency medicine, if 
he were here, would tell you that he does probably three or 
four tracheotomies every couple of years. And the guys, the 18 
Delta's probably do over 400 or 500.
    Senator Franken. OK. Thank you. I am out of time, but I 
would love to, Madam Chair, have a second round if I can.
    Senator Baldwin. I think we will be able to accommodate 
that.
    Before I call on Senator Murphy, one of the distinctions 
between a roundtable and a formal hearing is that you, as 
witnesses, can react to one another's answers, et cetera. And I 
do not think we went over how you should seek that recognition, 
if you are interested. But because of Ms. Rhinehardt's deep 
background with the Senate, she already knew just where to put 
your nameplate and we will make sure to call on you.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Madam Chair.
    We spend a lot of great time here talking about what 
happens when you are there at the college and how to best 
accommodate veterans. I wanted to spend my few minutes talking 
about how we help service members pick the right college.
    We are really proud of what we have done in Connecticut as 
all my colleagues are. We have tuition waivers for veterans to 
attend our public universities. We have private, nonprofit 
universities like the University of New Haven which goes so far 
as to actually raise private dollars in an emergency fund to 
cover the gap that sometimes exists before the G.I. benefits 
kick-in.
    But the reality is that 37 percent of post-9/11 G.I. bill 
benefits are not going to State universities or to private 
nonprofit universities; they are going to for-profit 
universities. And 50 percent of DoD tuition assistance--50 
percent--is going to for-profit universities. Many of these 
universities do not have, as their primary motivating factor 
the education of veterans, but they have profit as their 
motivation. And we actually have an Executive order that the 
President released, No. 13607, in 2012 that would try to get 
our hands around this problem of often very troublesome 
targeting and marketing of these for-profit universities to 
veterans.
    Dr. Langdon, your statistics are cautionary in the sense 
that we are proud of how many veterans are getting to school, 
but the fact that it is taking, on average, 7 years to get an 
Associate's Degree. Some of that, clearly, is for legitimate 
reasons and nontraditional students take longer, but part of 
that is probably because there are a lot of veterans that are 
not getting the right information about what the best school is 
for them.
    So I wanted to ask this question, a broad one, to the panel 
and maybe start with Dr. Langdon and Ms. Thompson Starks. What 
could we be doing better to try to give veterans the 
information they need to pick the right choice, and should we 
not be worried about this huge transfer of benefits going to 
for-profit; which, as the committee's own report shows, are not 
delivering the same outputs for students that UVM, and the 
UNC's System, and the University of Connecticut System are?
    Mr. Langdon. Sir, very good question, and on behalf of DoD, 
as we approach it when we look at military tuition assistance, 
the thing that I must bring forward is, of course, the 
presidential Executive order that you have mentioned. From 
that, the Department of Defense has updated, just released on 
the 15th of May the new Department of Defense Education 
Partnership Memorandum of Understanding, MOU. In that, we 
addressed a lot of the issues that you are referring to.
    For example, institutions providing education programs 
through DoD will provide meaningful information on financial 
attendance; will not use unfair and deceptive practices; 
implementation of rules to strengthen exiting procedures and 
access to installations, along those lines.
    What we also realize is that we now have a robust 
interagency information sharing. At the installation level, as 
it is fed down through the services, the service members are 
counseled and they are talked about what their goals are and 
what they want to try to achieve.
    And I submit to you this, a profile of a TA user, Tuition 
Assistance on active duty. They are a full-time worker, part-
time student. As you say, they take an average of three courses 
per year and less than 1 percent ever reach their cap of that 
$4,500. The majority complete their education after leaving, 
and there are seven or eight more that go that way, to your 
point about 7 years.
    Within this new construct, they now must have an education 
plan. It must be through a university or school that signs an 
MOU that has to meet specific accreditation requirements, which 
is national and regional accreditation. They must adhere to all 
the principles of excellence that has been outlined in order to 
receive, first receive, the tuition assistance dollars.
    As we work through that now, the biggest changes are making 
sure that that service member has a vetted, approved plan, they 
stay on-plan, and it is something that they can translate.
    One final point, sir. An active duty member may go to a lot 
of universities. The online venue is very attractive because a 
lot of the flagship or larger schools--UNC, whomever--is a 
campus-based program. And as you know, a lot of our service 
members, if they spend any time, they are going to move several 
times.
    And so, they are taking coursework at universities that fit 
that schedule or that work life. But we have made huge strides 
in that matter.
    Thank you, sir.
    Senator Murphy. Ms. Thompson Starks.
    Ms. Thompson Sparks. Thank you for an opportunity to 
respond.
    The Department of Education starts from a philosophy that 
in order to help students make good choices, we have to give 
them information and tools that enable them to make quality 
decisions. We are doing a number of things to provide important 
information with respect to cost comparisons across colleges, 
financial aid strategies that students can use to reduce their 
debt, and also to select quality institutions.
    A number of these efforts have been implemented through the 
Principles of Excellence Executive Order and our role working 
with our agency partners. We were working very closely with DoD 
and V.A. on the G.I. bill comparison tool which draws upon data 
from Education's IPEDS system, and we have also been involved, 
as you know, as I mentioned in my opening remarks, in the 
implementation of the financial aid shopping sheet, which is 
now being used by more than 2,000 institutions.
    Through those efforts, we do hope that this is enabling 
students to make well-informed decisions about college options.
    Senator Murphy. Thanks.
    Mr. Hubbard.
    Mr. Hubbard. Thank you, Senator. I would like to applaud 
the DoD and their Tuition Assistance Program for taking those 
steps. I think that is an active measure that is absolutely 
necessary.
    I would also point to the comparison tool, which my 
colleague brought up. That comparison tool allows student 
veterans to make decisions on information, not guesses. That is 
very important. With the Million Records Project that Student 
Veterans of America published, which allowed a similar approach 
to make decisions for policymakers at the higher education 
level on veterans on data, not guesses. Anecdote is great, and 
that can point you in the right direction, but it is not 
something you can base a sound decision on.
    I would also note that for an individual to go to the 
comparison tool to find the school that they are interested in, 
and then to take it a step further by actually contacting a 
Student Veterans of America chapter or veterans on that campus. 
That allows them a very clear, on the ground perspective that, 
I think, is absolutely critical. If you are not talking to 
veterans who are actually experiencing what is going on, on the 
ground, you might have a flawed assessment. I mean, you can 
have a lot of pretty pictures on a lot of nice-looking Web 
sites, but at the end of the day, if you are not talking to 
people who are in the actual experience themselves, you 
probably are not going to get a clear picture of what is going 
on.
    I would applaud Senator Warren for her efforts on student 
debt. I think as individuals make better informed decisions, 
the student debt will come down. However, for the time being, 
this is still an important issue. People are going to schools 
that have false marketing practices and aggressively pursue 
veterans for their G.I. bill.
    This results in them losing benefits because they are not 
getting a degree with that G.I. bill benefit that they are 
spending. As a result, they end up losing time with that G.I. 
bill and have to take out further debt.
    Senator Murphy. Mr. Carlson.
    Mr. Carlson. Thank you, Senator.
    One of the things that I do as a part of my role at the 
University of Vermont is work very closely with perspective 
students who are incoming to the University and who are in that 
search process. And when I am speaking with a perspective 
student veteran who is deciding which school to attend, if the 
most important part of his or her decisionmaking process is, 
``How easy is it to use V.A. benefits here?'' I think that is a 
problem.
    I think that students should be choosing schools based on 
academic programs, support systems, proximity to family, or 
other personal reasons and not just based on how easily they 
perceive to be able to use V.A. benefits at that institution.
    Senator Baldwin. Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Madam Chairman.
    I am glad to hear about the work to help prospective 
students get critical information when they are making 
decisions about where to go to school. But we still have many 
who are in programs that are happy to take the military 
member's Federal benefits, but do not deliver on their promise 
of providing a good education.
    And as we know, this is a serious problem for any student, 
but even worse for those who are using G.I. benefits. Once a 
veteran entrusts a college with those hard-earned benefits, 
there is no second chance if the school turns out to be of very 
poor quality.
    Prior to this year, veterans and active duty military had 
few places to turn to share their stories and get help when 
they were mistreated by colleges.
    In January, the Federal Government launched a system for 
veterans and members of the military to file complaints about 
bad experiences they had with colleges. The Complaint Portal is 
a collaboration among several Federal agencies, including the 
Department of Veterans Affairs, the Department of Defense, the 
Department of Education, and the Consumer Financial Protection 
Bureau.
    My question is, Dr. Langdon, how does the DoD plan to use 
the data that you are collecting from complaints to improve the 
Tuition Assistance program?
    Mr. Langdon. Madam, it is a very good question. To caveat 
to my prior statement, not only must the schools be regionally 
and nationally accredited, but they also must be V.A. approved, 
and they also must be title IV approved.
    There are many levels that we wanted to make sure that the 
service member, when they were going to school, that they were 
going to protect.
    Senator Warren. I understand about the front end. My 
question is you are collecting now a lot of complaint data.
    Mr. Langdon. Yes.
    Senator Warren. What I want to know is how do you plan to 
use the complaint data?
    Mr. Langdon. As we brought it into date, ma'am, we have had 
146 complaints since January, complaints field since January 
when it was brought on. That is not a huge number, considering 
as the number that I have given you of 285,000.
    What we are finding of that data, of those complaints, they 
are not actually complaints against a school per se. It is 
unknown policies or, ``I did not know what a policy was.'' It 
was a process or policy procedure.
    What we have realized, ma'am, is that we need to now start 
touching back with the universities, the ones that our students 
are going to and trying to help them understand what we are 
hearing and what we are finding about where the policies need 
to be, how the explanations need to go, just as to my colleague 
to the left here mentioned that before. It is easily accessible 
UNC on their policy. That is what we are using.
    Senator Warren. Just so I understand, sir.
    Mr. Langdon. Right.
    Senator Warren. At this point, your plan is to investigate 
each one of these complaints.
    Mr. Langdon. As they come in, yes.
    Senator Warren. As they come in. And let me just ask while 
we have this out here, Ms. Thompson Sparks, why does the 
Federal Government not collect complaints from all students?
    Ms. Thompson Sparks. I am not sure I have the specifics to 
answer that question. However, I will say that the collection 
of data is of utmost importance to us.
    Senator Warren. But how about complaint data?
    Ms. Thompson Sparks. The Department of Education is 
participating as part of the centralized complaint system. And 
to date, I do not have the exact number of complaints we have 
received, but I know it is feeding back into our understanding 
of how our title IV borrowers are utilizing their aid.
    Senator Warren. Mr. Hubbard.
    Mr. Hubbard. That is actually an excellent point, I think, 
Senator. And that is veterans are highlighting issues that have 
been occurring for individuals in higher education across the 
board. I think only until recently as these veterans have 
spoken out that these issues have surfaced.
    For veterans, they have no problem, necessarily saying, 
``Hey, I have earned these benefits and they are being used 
poorly.'' I think to that end, we could encourage more veterans 
and more individuals in higher education to take similar steps.
    Collecting data across the board for individuals in higher 
education? Extremely important. If we are not doing that, we 
are letting all individuals down. Veterans that go to school 
will be let down because their peers are being let down. The 
educational environment as a result is hurt, and that hurts 
everyone across the board.
    Senator Warren. Thank you.
    Mr. Carlson.
    Mr. Carlson. Thank you, Senator.
    One of the main complaints that I hear about the post-9/11 
G.I. bill specifically is the ability for a veteran to separate 
from the military and then enter into a program that is V.A.-
approved and is degree-seeking as a matriculated student at a 
school.
    The post-9/11 G.I. bill will pay up to two terms while they 
are seeking continuing education courses to become 
matriculated, degree-seeking students. However, one of the real 
problems that I have run into is that at many schools, and 
University of Vermont is one of them, over the summer term 
there are many different meeting sessions with different 
beginning and end dates. And from the V.A. perspective, well 
for the University of Vermont, it is one semester. From V.A.'s 
perspective those are each separate terms.
    I have students, when we think about nontraditional 
students and student veterans being some of the most 
nontraditional, we have individuals who entered UVM in the 
spring semester who are trying to be degree-seeking, 
matriculated students in the fall who can only get a portion of 
their summer course paid. And that is something that I have 
seen that is a real problem. It is a barrier to them becoming 
degree seeking students.
    Senator Warren. Ms. Rhinehardt.
    Ms. Rhinehardt. Yes, ma'am. We all sit here, with 
complaints about rising tuition and the cost of going to 
college. And as I listen to my fellow panelists--I heard, I do 
not know, on the fourth iteration of a DoD MOU or third. I lost 
track. The Department of Education is doing something, CFPB is 
doing something, the V.A. is doing something.
    Back home in North Carolina, we have a lot of State 
legislators asking us, ``Why do you have so much middle 
management?'' Well, because we have to keep up with all of 
these processes and make sure we are inputting all these things 
to comply. Every minute that we are working to comply with 
multiple agencies that may or may not be coordinating, that is 
a minute that is taken away from serving the veteran.
    Senator Warren. I am sorry, Ms. Rhinehardt. I want to make 
sure I understand you. What we are talking about here is an 
established complaint system that has only been established 
since January, and it is there to take complaints directly from 
veterans or active duty service members who are having a 
problem with a college.
    Are you saying that when we get a followup from the 
Department of Defense that they should not be following on 
those complaints to find out what the veteran's problem is with 
the college and whether or not the college is appropriately 
addressing it because it takes your time?
    Ms. Rhinehardt. No, ma'am. Actually, I did not address the 
complaint system at all.
    Senator Warren. That was what my question was about--the 
complaint system and whether we should have a complaint system. 
Not just for veterans and active duty military, but we should 
also have a complaint system for all students.
    I want to make the point that having a complaint system in 
place is a powerful tool for accountability. In a little over 2 
years the Consumer Financial Protection Bureau has handled 
nearly a quarter of a million complaints about financial 
products. Service members, veterans, and their families are 
only a small portion of those who have complained, but they 
have already recovered more than $1 million from financial 
institutions through this complaint system.
    Every complaint, however, has been valuable because it 
tells an agency what kind of problems exist and where they 
exist and permits that agency to examine the institutions that 
are failing those they are supposed to serve.
    Most recently, the CFPB complaint data formed the basis of 
a $97 million settlement against Sallie Mae for overcharging 
veterans on their student loans. We should take seriously the 
importance of developing robust complaint systems and using the 
data that come from those systems.
    Thank you, Madam Chairman.
    Senator Burr. Madam Chair, could I say to my colleague, 
there has been a complaint system that has been available to 
every student, not just to veterans. It is the accreditation 
agency. Any student, since I can remember, could file a 
complaint with the accrediting agency of that institution. And 
I am not saying that is prefect for veterans, but we have not 
been without a mechanism for students to complain to people who 
can affect whether the accreditation of that institution is 
intact or not.
    Senator Warren. I appreciate the Senator's comments about a 
complaint system that is in place. But when we have had the 
accreditors in here to talk about the process under which they 
consider accreditation and whether or not they actually take 
steps, I think we can conclude that it has not been a very 
effective process for making sure that students' complaints are 
heard or acted upon.
    Senator Burr. My good friend raises a good question.
    Senator Baldwin. The Chair is here to call upon Senator 
Casey.
    Senator Burr. My good friend raises a question that is the 
subject of debate for higher education reauthorization and I 
take it that way. But let me just be on the record, it does not 
take the Federal Government stepping in to create something. We 
should make sure that what we have got in place works and I 
support what DoD is doing. I think it is important for the 
veteran's program. But if we have got something that is broken, 
then let us make it work.
    Senator Baldwin. Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thanks very much, and I appreciate the 
testimony of the panelists. I know I missed a lot of your 
testimony here today, but appreciate the work you have done to 
provide written testimony that we will benefit from. And I also 
appreciate the commitment that you have made on these issues.
    When I consider what our obligations are to veterans, I 
think it starts with that basic understanding that I have often 
said is not good enough for us at the time of a military 
engagement to pray for veterans. It is also our obligation to 
make sure that we are worthy of their valor. And being worthy 
of their valor means getting the policy right, and that is what 
you are helping us with when it comes to helping veterans get 
their higher education and job readiness opportunities when 
they come back.
    I need to do a little bragging for just a moment about my 
State, if you do not mind. We all do that at some point. We are 
all allowed to do this, but a couple of institutions that were 
ranked by ``U.S. News & World Report'' in November 2013 for 
their efforts on behalf of veterans and student veterans. Penn 
State was ranked No. 1 and Drexel University came in 12th. 
Temple and Duquesne were tied for 24th. I am pretty happy about 
that and I want to make sure they heard that I bragged about 
them. Maybe no one else has done that today. There are some 
good models out there and we want to draw upon them and use 
them as templates.
    One question I had, and I will start with Mr. Hubbard and 
then broaden it from there. You and your organization helped us 
put together legislation, the Veterans Education Counseling 
Act, which as its purpose to empower veterans seeking an 
education by making sure that they know they are entitled to 
basic education counseling.
    A lot of this revolves around so-called Chapter 36 
Education Counseling. Our bill asks the V.A. to make it clear 
the differentiation between the Chapter 36 education counseling 
and the so-called Chapter 31 Vocational Rehabilitation program.
    We want to make sure that they are aware of what they are 
entitled to. That sounds almost elementary or self-evident, but 
as we know, often in Government sometimes even if you have a 
good policy in place, folks do not know about it because we do 
not often do a good job of telling them.
    I want to start with you, Mr. Hubbard, about that concept 
in the bill, but also anything else that you hope we would do 
as it relates to not just policy on veterans education, but 
making sure that we can make sure that folks are aware of what 
benefits are there for them.
    Mr. Hubbard. Thank you, Senator.
    I appreciate that. I will point out that Drexel was a 
recent Chapter of the Month for Student Veterans of America, so 
they are doing excellent things.
    Senator Casey. Thank you for helping me do my job. I 
appreciate that.
    Mr. Hubbard. That is what we are here for.
    I believe that the 1-year out counseling is something that 
is critical. Counseling, in general, is obviously very 
important, but catching them 1 year out before they are end of 
active service, they are EAS, is critical.
    We are not doing that as well as we should, and it does 
sound elementary that individuals would be informed about what 
they are entitled to. That does not always happen. It simply 
just does not happen in a lot of cases. I think that is just a 
product of the system. Not a lot of individuals, by the time it 
gets down to the unit level or even below to the individual 
level, it is just not happening.
    That information is important for individuals to be able to 
actually make a clear, informed decision. If they do not have 
that information, who knows what is going to happen. They might 
say, ``Well, I am not entitled to go to school.'' ``Well, you 
just did 4 years in the Marine Corps. Of course you are.''
    A second point I would like to make is that of access. If 
you have the information to make the right decisions, that is 
obviously a precursor. But if you cannot access your benefits, 
if the system is too difficult to process it, if your claim 
gets lost, if an individual finally gets to the university but 
finds out they cannot afford it because they do not have in-
State tuition, for example. You do not have that access and 
that is going to be a critical barrier.
    A side note to that, that issue is something that we are 
critically looking at. If an individual racks up a lot of debt, 
they go through school. Maybe they did not get their degree, 
but they come out, now they cannot pursue a career. They have a 
difficult time paying off their bills, and this is something 
that we are very concerned about.
    Senator Casey. I may come back to that, but I know, Mr. 
Carlson, Ms. Rhinehardt.
    Mr. Carlson. Thank you, Senator.
    Some of the work that I do with prospective students when I 
am sitting with a military veteran, and often their family, 
across the desk from me and I say, ``Hey, it is great. You got 
Chapter 33 post-9/11 G.I. bill. Do you know how that works and 
do you know how it works at the University of Vermont,'' 
because each institution of higher learning has some different 
policies and procedures in place. And a lot of times I hear, 
``Oh, yes. Absolutely. I know exactly what it pays.''
    Then I go through exactly what it will do, and sometimes 
there can be a little bit of a shock. There can be, ``Oh, I did 
not know that it did not cover out-of-State tuition.'' And more 
often it is very positive saying, ``Wow, I did not know that it 
paid really that much and that I got this amazing housing 
allowance while I am engaged.''
    Whenever I have a student, a prospective student or a 
current student who does not understand their benefit entirely, 
I think it is very important that we begin that education 
process early in their separation period.
    Senator Casey. Just ask before moving on, what is the best 
delivery mechanism to do that? In other words, obviously, the 
V.A. But I want to get a better understanding of what is the 
problem here if that information is not transmitted to the 
veteran?
    Mr. Carlson. Yes, sir. I believe that a lot of information 
in the military is passed through peer experience and through 
peer engagement. There is a lot less of the texting, email, 
kind of things for the chain of command that comes down from 
the platoon commander to the squad leader to the individual 
Marine or soldier or airmen.
    I think that implementing peer engagement along that point 
would be something that is very helpful.
    Senator Casey. OK. Yes.
    Ms. Rhinehardt. To brag on our Marines at Camp Lejeune a 
little bit. Their process, which I think is now a Marine Corps 
wide process, is that all new Marines on their very first day 
of coming in after they stand in the yellow footprints, and get 
their haircut, and figure out where they are is that they start 
their education pathway that day.
    Senator Casey. OK.
    Ms. Rhinehardt. They start to determine how their military 
career is going to factor into an eventual civilian career. And 
I know that my colleagues at Camp Lejeune were very 
instrumental in developing that pathway. So it is happening 
within the service branches and it is not perfect. Nothing is, 
but it is a really good start.
    At the University of North Carolina, I would like to agree 
that with all of their points that transparency and information 
sharing is critical. That is why we have developed an online 
portal called the North Carolina Military Educational 
Positioning System. We want it to be a one-stop shop place for 
any student, veteran, spouse, or dependent to go in and use 
decision tree models to figure out, based on their own personal 
circumstances, here are your options to consider. We do not 
ever inform them of what the right option is. We just lead them 
to their ultimate choices. And they can save that under a 
personalized account. And we intentionally decided that we did 
not want this to be limited to just public institutions in the 
State. We understand that we cannot educate every citizen in 
the State of North Carolina. We need our private institutions 
to help us do that.
    We want to make sure that the veteran or the service member 
has access to the institution that is right for them.
    Senator Casey. Thank you.
    Ms. Starks. I will not ask anymore because we are getting 
close on time. We have two minutes.
    Ms. Thompson Starks. Thank you. We know how important 
counseling and early information is for all students to make 
important decisions about pursuing higher education. And I want 
to mention three action areas, in particular, that have been 
significant in the Department's contributions to support 
service members and veterans.
    The first is working with our agency partners on the 
redesign of Transition GPS. The emphasis has really been on a 
military lifecycle model, which enables service members to get 
access to critical information before they are separating. This 
is really important. It is meeting service members at the point 
at which they are making important choices about the path to 
pursue after military service.
    The second, I would like to mention that we have pursued, 
through our Office of Federal Student Aid, is a financial aid 
tool kit that includes information and resources, from fact 
sheets to how-to videos that are really targeted toward 
counselors and those that are working with students. We have 
also customized a guide for military service members and 
veterans to provide key information about their Federal 
benefits.
    And third, I would like to mention that we are doing 
training and direct outreach to DoD's Transition GPS accessing 
higher education facilitators, which is really helping to build 
capacity on the ground, and provide the important information 
to their team.
    Senator Casey. Great. Thank you. Mr. Hubbard, you are on 
borrowed time.
    Mr. Hubbard. I know. Thank you, Senator. I appreciate that.
    If I can actually just quickly emphasize a quick point that 
my colleague and fellow Devil Dog made and that is the peer 
experience. I think this touches on an absolutely critical 
point. While I do appreciate the institutional support and 
think that is a necessary precursor, without that, I think 
anything else is a moot point.
    I will say that peer-to-peer access to information is 
probably the most important point in this conversation. That is 
how individuals, Marines, sailors, soldiers, and airmen, get 
their information from each other.
    Senator Casey. Yes.
    Mr. Hubbard. And so that is truly probably the most 
critical point.
    Senator Casey. Thank you very much.
    Thank you, Senator Baldwin.
    Ms. Rhinehardt. Just to quickly respond. You can have all 
the advanced information in the world, so long as you know what 
your plan, what your outcome looks like. We have a lot of folks 
within the military who are receiving involuntary discharge 
orders. They do not realize they are not going to be in the 
military next year. They are not contemplating going to school 
at this moment. So we need to remember that there are a lot of 
folks out there that their lives have just changed and it is 
beyond their control.
    Senator Casey. Thank you.
    Senator Baldwin. I think we are going to do a quick second 
round and I will start with my own questions.
    I would like to return to the Million Records Project. I 
understand SBA has been working in collaboration with the 
Department of Veterans Affairs and the National Student 
Clearinghouse on that project to help us, as policymakers and 
veterans and citizens, better understand the education and 
career outcomes of veterans.
    And I also believe that, in order to help veterans and 
service members meet their goals, they have to have clear, 
outcome-driven information on which to base educational 
decisions.
    Two years ago, when I was a member of the House of 
Representatives, I was proud to support both the Camp Lejeune 
Families Act and the Improving Transparency of Educational 
Opportunities for Veterans Act, both of which require reporting 
on educational outcomes for veterans by the Department of 
Defense and the Department of Veterans Affairs.
    The Camp Lejeune Families Act required reporting on student 
outcomes such as certificate degree attainment, credit hours, 
and other qualifications earned. The Improving Transparency of 
Education Opportunities for Veterans Act of 2012 also required 
the V.A. to report on important metrics such as graduation 
rates, cohort default rates, median amount of debt, and many 
other metrics.
    I have a twofold question. First, are there additional 
metrics that you think that policymakers and the Federal 
Government ought to be collecting in order to get a better idea 
of how our veterans and service members are progressing through 
higher education?
    And second, how can we make this information on student 
outcomes, such as degree or certificate attainment or the 
financial metrics such as cohort default rates, readily 
available and much more easily digestible for students seeking 
that data?
    I will start with you, Mr. Hubbard and then Ms. Rhinehardt.
    Mr. Hubbard. Thank you, Senator.
    I think the Million Records Project was groundbreaking 
research. It was the first time in over 70 years that we 
actually had a clear picture of how veterans were doing in 
higher education.
    This kind of research has not been done since World War II. 
Why it was not done previously? Hard to say, but it was a very 
difficult process to do. But we were happy and excited to be 
able to offer that to policymakers, such as those in the 
Senate.
    This data-driven approach is something that we take very 
seriously at Student Veterans of America. We do not base 
decisions on whim or anecdote. We base decisions on the data. 
We look at the data for our thoughts.
    I think that schools could do a lot to compare themselves 
to this data. We did not necessarily look at institutional 
level data. We looked at a broad understanding to get a 
baseline across the 10 years of G.I. bill use.
    I think institutions, if they were to compare themselves 
and make sure that they are tracking that data, tracking their 
own outcomes of veterans, they could look inward and figure 
out, are they doing better, worse, what is working, what is 
not.
    That is something that we are also looking at in phase 2 of 
the Million Records Project to understand the qualitative 
reason for the outcomes that we are seeing. Figure out what we 
can do to perhaps improve those numbers.
    To your point about additional metrics, I think in our 
phase 2, we are looking at several different features like Vet 
Success on Campus. Is that working? What are the outcomes of 
that, the impact of that on student education?
    And then also in terms of loans, I think that is something 
that we are also very interested in. There is currently no way 
for an individual to have an aggregated view of their current 
debt or loans that they have. You have the Department of 
Education's loans and Federal loans that are out there. You 
also have private loans and those two do not necessarily talk.
    If we can come up with an approach that would aggregate 
this information, it would allow universities to have a better 
understanding of how their students are doing, and it would 
also allow individuals to have a better understanding of how 
they are doing.
    Currently, the only system we know out there that does this 
is the National Student Clearinghouse's Meteor Program. This is 
something that we are very interested in and think could 
benefit students widely.
    Senator Baldwin. Senator Burr.
    Senator Burr. Thanks, Senator Baldwin.
    Ms. Starks, since Senator Warren brought up the Sallie Mae 
settlement, may I ask you some questions?
    Pamela Moran was employed by the Department of Education's 
Office of Postsecondary Education here in the summer of 2011. 
Are you familiar with her June 9, 2011 letter, in her capacity 
as a Department official to the Consumer Bankers Association 
Education Finance Council, the National Council of Higher 
Education, and the Student Loan Servicing Alliance responding 
to their request for clarification regarding SCRA compliance 
and proper treatment of veterans? Where she said,

          ``We agree that when a member of the military does 
        not clearly specify an end date for their service, that 
        is a reasonable approach to interpreting the service 
        dates on military orders to identify the start and end 
        dates for the interest relief rate relief.''

    Are you familiar with that letter?
    Ms. Thompson Starks. No, sir. I do not have that letter.
    Senator Burr. Are you familiar with the letter?
    Ms. Thompson Starks. No, I am not.
    Senator Burr. Do you consider a letter from Ms. Moran to be 
as an authority within the Department of Education providing 
guidance to the student loan industry representatives to say 
that there is a start and an end date must be present in a 
service member's request in order for a lender to grant the 
request?
    Ms. Thompson Starks. Sir, thank you for the question.
    Since I am not familiar with that letter, and do not have 
the letter with me, I will just say that I know that this is an 
issue that we are taking very seriously.
    Senator Burr. But that was the Department's policy. That 
was the guidance that they gave to lenders. Do you agree with 
that?
    Ms. Thompson Starks. I am sorry. I cannot comment on that.
    Senator Burr. Is this an issue that the Department has said 
that, as a matter of fact, they announced it would issue 
guidance for student loan servicers clarifying this 
contradictory guidance that have been issuing to the field from 
what the Department of Justice and FDIC have been putting out 
in the field.
    Is this a guidance that is being reconsidered currently at 
the Department of Education?
    Ms. Thompson Starks. I will say that we are taking steps 
working closely with the Department of Justice to ensure 
accountability and that our service members are getting the 6 
percent interest rate cap to which they are entitled.
    I do know that we are directing all of our servicers to 
match borrow portfolios to the DoD-SCRA data base, which should 
ensure that eligibility is determined more quickly and that 
paperwork burdens are reduced.
    I will also say that as we are conducting these reviews, we 
are preparing additional guidance to try to streamline borrower 
processes and provide additional clarifications as to what our 
expectations are. We take this very, very seriously and know 
that serving our borrowers is of our utmost and highest 
priority.
    Senator Burr. Ms. Starks, I think the Department has said 
publicly, ``We are going to clarify our guidance because of 
this decision,'' which means that their interpretation was it 
was not clear.
    It seems the Department could provide more guidance to 
servicers by clearing up the differences between active duty 
personnel as defined under the Higher Education Act whereas the 
SCRA provides benefits for members during periods of military 
service creating a distinction between reservists and active 
duty personnel overall.
    So which statute is accurate in your determination, the 
Higher Education Act or the SCRA? And to whom does the 6 
percent interest rate benefit accrue to?
    Ms. Thompson Starks. Sir, I very much appreciate your 
questions and I would be very glad to take those questions back 
and provide a response for the record.
    Senator Burr. I appreciate that and I think I have made the 
point that this is why it is difficult for servicers to provide 
these products because we cannot get clarity on whether you 
fall this way or that way.
    And I would just say to my colleague who, since we are the 
last Indians here, it is important that not only Congress be 
specific in the legislation we write. It is absolutely crucial 
that the agencies in their guidance provide accurate, 
thoughtful guidance. This is not something we should let the 
Department of Justice determine in the end and penalize 
somebody because of the guidance that they got from an agency 
of the Federal Government.
    I thank the Chair.
    Senator Baldwin. I thank Senator Burr for co-chairing this 
roundtable with me. I want to thank the participants for, first 
of all, those of you who have served, thank you for your 
service. Thank you for your participation today. Your testimony 
is very helpful to us.
    I request that the record remain open for 10 business days 
for members to submit statements and additional questions for 
the record.
    I appreciate the participation of my colleagues.
    And with that, the committee will stand adjourned.

    [Whereupon, at 11:43 a.m., the hearing was adjourned.]

                         [all]
</pre></body></html>
